<html>
<title> - HEARING ON THE 2020 CENSUS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                       HEARING ON THE 2020 CENSUS

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 12, 2017

                               __________

                           Serial No. 115-58

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
              
              
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-245 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>              
              
              
              
              
              
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Stacey E. Plaskett, Virgin Islands
Mark Walker, North Carolina          Val Butler Demings, Florida
Rod Blum, Iowa                       Raja Krishnamoorthi, Illinois
Jody B. Hice, Georgia                Jamie Raskin, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Jimmy Gomez, Maryland
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna, General Counsel
                       Patrick Hartobey, Counsel
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 12, 2017.................................     1

                               WITNESSES

Panel I:
The Honorable Wilbur L. Ross, Jr., Secretary, U.S. Department of 
  Commerce
    Oral Statement...............................................     6
    Written Statement............................................     9

Panel II:
Mr. Robert Goldenkoff, Director of Strategic Issues, Census 
  Issues, U.S. Government Accountability Office
    Oral Statement...............................................    41
    Joint Written Statement from Mr. Goldenkoff and Mr. Powner...    43
Mr. David A. Powner, Director of Information Technology 
  Management Issues, U.S. Government Accountability Office
    Oral Statement...............................................    84
Ms. Carol N. Rice, Assistant Inspector General, Office of 
  Economic and Statistical Program Assessment, U.S. Department of 
  Commerce
    Oral Statement...............................................    85
    Written Statement............................................    87
Ms. Vanita Gupta, President and CEO, The Leadership Conference on 
  Civil and Human Rights
    Oral Statement...............................................    96
    Written Statement............................................    98

                                APPENDIX

Opening Statement of Mr. Gerald E. Connolly......................   114
The Leadership Conference reports titled, ``Counting Everyone in 
  the Digital Age,'' and ``Administrative Records in the 2020 
  U.S.Census: Civil Rights Considerations and Opportunities,'' 
  referenced in Ms. Gupta's written statement....................   116
Statement for the record of J. David Cox Sr., submitted by the 
  American Federation of Government Employees, AFL-CIO (AFGE)....   117
Letter for the record from the Interreligious Working Group on 
  Domestic Human Needs...........................................   121
Questions for the record for Secretary Ross, submitted by Members 
  of the Committee...............................................   124

 
                       HEARING ON THE 2020 CENSUS

                              ----------                              


                       Thursday, October 12, 2017

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:10 a.m., in Room 
2154, Rayburn House Office Building, Hon. Trey Gowdy [chairman 
of the committee] presiding.
    Present: Representatives Gowdy, Duncan, Issa, Jordan, 
Amash, Farenthold, Massie, Meadows, DeSantis, Ross, Walker, 
Blum, Hice, Grothman, Hurd, Palmer, Comer, Cummings, Maloney, 
Clay, Kelly, Watson Coleman, Plaskett, Demings, Raskin, Welch, 
Cartwright, DeSaulnier, and Gomez.
    Chairman Gowdy. The committee will come to order. Without 
objection, the chair is authorized to declare a recess at any 
time.
    Secretary Ross is with us. He will be joining us 
momentarily. I will recognize myself for an opening statement 
and then my friend from Maryland.
    The census is constitutionally required. It is what ensures 
that, just as every vote should be counted, every person should 
be counted. This is a condition precedent for accurate 
redistricting and accurate reapportionment. The census is not 
only important for purposes of constituting our government, it 
is also important for apportioning the resources and services 
of our government.
    So the census is vitally important for a number of reasons. 
It is also eminently predictable. There are a few things that 
can be foreseen quite like that decennial census. It happens 
every 10 years whether you are ready or not. So it is 
incredibly important, beginning with the fundamental truth of 
counting every one of our fellow citizens. And we know well in 
advance when it is coming, so we can't complain that we were 
caught off guard, and we can't complain that we didn't see it. 
So have a couple more years before we actually count everyone, 
but now is the time to make sure that we are ready to count 
everyone with accuracy, with security, and with 
professionalism.
    We are all concerned with cost. Our fellow citizens are 
hearing about cuts in a number of areas, and there is concern 
about the deficit and the debt, so cost is important, but it is 
also very important that we get this done right, accurately, 
professionally, with security and in a fashion worthy of the 
world's great democracy.
    What would be even worse than unexpectedly high cost is 
unexpectedly high cost coupled with less-than-full success, so 
we want to make sure the census is a success. We don't 
appropriate money on this committee, but we do help make sure 
the right questions are asked in a timely fashion.
    So for Secretary Ross, I appreciate his time, and I 
appreciate the time frankly that he has given our committee 
before today, as well as his appearance today. We live in a 
country that is increasingly skeptical of whether or not we can 
get things done right, in a timely fashion, and in an 
incredible responsible way.
    I think our country as a whole, irrespective of the region 
in which you may live or your political ideation, would 
appreciate a good news story, a story of how a government 
entity was prepared, efficient, and exceeded their 
expectations. So 2020 may seem like a long way off, but it is 
coming, and when it comes, we are going to have to have counted 
300 million-plus people accurately, so I think time is of the 
essence even today.
    Chairman Gowdy. So with that, I would welcome all of our 
witnesses, especially Secretary Ross, and would yield the 
remainder of my time to my friend from North Carolina, the 
chairman of the subcommittee, Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you for your 
leadership on this particular issue. And as we go into this 
hearing today, I think it is critically important that we all 
realize that, while 2020 is a good ways off, we have already 
missed critical dates, critical testing, and critical 
implementation that should have already been done according to 
our own schedule that we have had in previous hearings.
    Of the IT systems that are out there, there are some 43 IT 
systems that need to be implemented, and yet today, only four 
have actually been fully implemented, another 31 are only 
partially done, and 18 have not been delivered in any form or 
fashion. And yet we continue to have hearings over and over and 
over again about the critical nature of making sure that we not 
only get these systems implemented but tested and that we do 
end-to-end testing on a basis to make sure that cybersecurity, 
other fumbles do not happen. And yet here we are today on 
another hearing, and I am concerned that the focus will be on 
the $3 billion in terms of a budget shortfall and not on the 
other critical mission steps that have to be addressed. And so 
let's today focus not on the $3 billion but on the management 
issues that must be done.
    And in doing so, we are talking a little whole lot about 
disaster relief in every other area. Today is a day that we 
need to start talking about disaster relief for what will be a 
disaster if we don't get on this today.
    And so, Mr. Secretary, thank you for coming. For our second 
panel of witnesses, thank you for coming. I have been informed 
by some of your staff, Mr. Secretary, that you are on this and 
that you plan to make sure that this is not just a budgetary 
component, that it is a component that actually looks at the 
management procurement and otherwise. And I was pleasantly 
assured of that this morning, but we look forward to hearing 
more from you.
    I thank you, Mr. Chairman, for your leadership. And as we 
get this right, I look forward for this to be a good story in 
the months and years to come.
    I yield back.
    Chairman Gowdy. The gentleman from North Carolina yields 
back. The gentleman from Maryland is recognized.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    If there is one key point we can get across to those 
watching today's hearing, I believe it is simply this: The 
Census Bureau is dangerously underfunded and has been for 
years, and unless we do something about it right now, not 
yesterday, not today, but right this moment, this massive 
deficiency could imperil the fairness and accuracy of the 
census itself.
    Americans expect us to be able to do things right, and I 
think the Chairman would agree with me; I think you just said 
it. We want to be effective and efficient in whatever we do. 
Mr. Meadows is right. We have got to--it is not just a thing of 
money. It is a thing of operation and making sure that things 
are done properly.
    So this is not a partisan observation. Both progressives 
and conservatives agree that current budget projections are 
way, way, way, way, way too low. Eli Lehrer, the president of 
the R Street Institute, wrote an op-ed just this Tuesday 
warning that the census is, quote, ``understaffed and 
underfunded,'' end of quote, and that, quote, ``America is in 
serious danger of the census going wrong,'' end of quote.
    Ladies and gentlemen, we cannot afford to allow that to 
happen. This is the United States of America, the exceptional 
nation. If we cannot count the 300-plus million people who are 
in our country, I don't know how exceptional we will be 
determined to be.
    Last month, the Conservative American Enterprise Institute 
joined with the Center on Budget and Policy Priorities in 
warning Congress the current level of flat or near-flat 
funding, quote, ``is unprecedented and would significantly 
undercut efforts to conduct an accurate survey,'' end of quote. 
They warned that, quote, ``shortchanging the census is penny 
wise and pound foolish,'' that it, quote, ``jeopardizes the 
Bureau's ability to implement cost-effective new 
technologies,'' end of quote, and it, quote, ``could backfire, 
costing taxpayers more in the long run,'' end of quote. I say 
that we are better than that.
    I would like to show a future that illustrate this urgent 
problem. It won't show up on the screen, but members, it will 
show up on your screens at your desk. First, as we all know, 
funding for the Census Bureau historically increases 
dramatically in years 8 through 10 of each decade to 
accommodate the ramp-up in activities for the census in year 
10.
    The first chart shows funding for the last four decades in 
inflation-adjusted dollars. For the 1990 census, the Bureau 
increased from $596 million to $3 billion over the last four 
years. For the 2000 census, it increased from $535 million to 
$6.9 billion over this period. For the 2010 census, it 
increased from $1.1 billion to $8.4 billion over this period.
    But what are we doing now? We are basically flatlining. The 
Trump administration did not request a significant increase for 
2018. You can see the same trends when you look at the budget 
from a percentage basis, which is what this next chart shows. 
The 1990 census had a massive increase in the last four years 
of the cycle, as did the 2000 census and the 2010 census, but 
here is where we are now. The administration is not on track to 
match past increases for 2020.
    If we use these historical trends to project forward, total 
Census Bureau funding would be increasing over the next several 
years. But that is not what is happening. As this last chart 
shows, there is a shortfall of about $760 million when you 
compare what the administration is requesting to pass trends. I 
say that we are better than that.
    Now, Congress shares part of the blame, no doubt about it. 
In 2012, Congress insisted that the Census Bureau spend less on 
the 2020 census than it spent on the 2010 census. Congress 
refused to acknowledge or budget for two of the most 
significant and predictable drivers of cost increases that 
occurred between each decennial census inflation and population 
growth. Aggravating this problem even more, Congress 
appropriated even less then the Census Bureau requested in 
every single year since 2012.
    Now, some people will argue that the Census Bureau was 
supposed to save billions of dollars this time around by using 
new IT innovations to reduce the number of workers it needs to 
hire and increase the number of people who submit their forms 
online. The problem is that when you starve the Census Bureau 
year after year after year, it cannot make the investments 
needed to implement these innovations. And this is exactly what 
happened. And I am sure Secretary Ross will talk about that.
    As the former director of the Census Bureau, John Thompson, 
who left his position this summer, explained to the Washington 
Post just this week, and I quote, ``Had we been funded to do 
everything we asked for then, we would be much further ahead,'' 
end of quote. He continued, quote, ``At this point, they are 
going to have to go back and do some of it your way with paper 
and pencil,'' end of quote. With paper and pencil. This is the 
exceptional nation, the one that has done the census over and 
over and over and over again.
    Secretary Ross, I want to thank you for being here today 
and for briefing members of the committee last week. I 
understand you have limitations on your time, but, Mr. 
Secretary, we beg you to--we have members--and I am sure the 
chairman will emphasize this. We have members that are very 
interested in this subject, and I hope that--I don't know 
what--unless you are meeting with the President, I hope that 
you can spare us a few extra moments because we do want to get 
to have members ask.
    And as I close--and I know you will get into this during 
your testimony, but I appreciate that as a result of your own 
team's review you have also recommended that the administration 
increase its request for 2018 by $187 million. And thank you 
for doing that because so often we have Secretaries come in and 
they don't say exactly what they need because they don't want 
to get people upset. But this is just too important.
    I commend you for taking this step, and I know you 
understand the importance of this issue as a former enumerator 
yourself. However, I believe that even this request is far too 
low, too low. Did you hear me, Secretary? Too low, especially 
given the number of tests that have been canceled and extremely 
low number of hires at the moment.
    And so I know you are constrained in your current position. 
I was amazed to hear that the Office of Management and Budget 
rejected your request for an additional $50 million for 
contingencies that are virtually certain to occur. 
Nevertheless, we have a responsibility under the Constitution 
of the United States to ensure that the census is funded 
adequately and that the Census Bureau has the resources it 
needs to conduct a fair and accurate census.
    This should matter to each and every one of us because, 
while we historically discuss minority and immigrant 
populations being undercounted, low-income and rural 
communities are also at risk of being missed, particularly in a 
digital census. For this reason, yesterday, I joined my 
colleague, Representative Carolyn Maloney, who also chairs the 
Congressional Census Caucus, in introducing legislation to fund 
the Bureau at $1.935 billion this year, an amount that reflects 
budget projections from the Bureau's fiscal year 2017 budget 
and an extra $135 million for increases in the necessary funds 
for the CEDCaP program.
    As I close, we must recognize the gravity of the situation 
we are facing. And, Mr. Chairman, I thank you. You have taken 
on this matter very, very seriously. As you said earlier, we 
had a very informative meeting with the Secretary. I think that 
helped to lay the foundation for this hearing, and I look 
forward to the testimony. And thank you very much for your 
indulgence.
    Chairman Gowdy. The gentleman from Maryland yields back.
    We want to welcome you, Mr. Secretary.
    Pursuant to committee rules, I am going to ask you to 
please stand and we will administer the oath. If you will raise 
your right hand.
    [Witness sworn.]
    Chairman Gowdy. May the record reflect the witness answered 
in the affirmative.
    You may take your seat, Mr. Secretary. Your entire opening 
statement will be made part of the record. You will have five 
minutes to summarize that.
    I want to say, as Mr. Cummings did, we do appreciate the 
fact that there are other demands on your time, and we want to 
be good stewards of your time. The census is one of the unusual 
entities that is squarely within the jurisdiction of this 
committee, and there are lots of members that have questions, 
so what I am going to ask of my colleagues on both sides is to 
exercise the self-restraint of getting your questions done 
within five minutes. I am notoriously slow on the gavel because 
it is hard to unlock the mysteries of the world in five 
minutes, but I am going to ask my colleagues to self-discipline 
and get it done within five minutes so everyone can have a 
chance to interact with you and we can also be a good steward 
of your time.
    With that, I would invite you to turn on the microphone, 
and you are recognized for your opening statement.

                   WITNESS STATEMENT PANEL I:

STATEMENT OF WILBUR L. ROSS, JR., SECRETARY, U.S. DEPARTMENT OF 
                            COMMERCE

    Secretary Ross. Thank you very much. Chairman Gowdy, 
Ranking Member Cummings, and members of the committee, thank 
you for your continuing support and your discerning oversight. 
Thank you also for allowing the opening statements to be read 
while I was reviewing some of the newly developed material so I 
could comment on it myself.
    An efficient 2020 census that provides a full, fair, and 
accurate count has been one of my highest priorities since 
being confirmed in February. I myself was an enumerator as I 
worked my way through business school, and so I have a strong 
appreciation for the responsibilities and the unique challenges 
of counting everyone in the United States once every 10 years.
    Any operation that must hire and manage half-a-million 
temporary employees with complex and new technological systems 
and with rigid completion dates is bound to be a difficult 
undertaking for even the most experienced managers. And it has 
been clear to me from the beginning of my tenure that census 
would be one of the most challenging aspects of the entire 
Commerce portfolio.
    I agree with the members of this committee. The census is 
the bedrock upon which we construct our system of democratic 
representation. It provides for apportionment, redistricting, 
and the distribution of hundreds of billions of dollars of 
Federal funding. Accordingly, some of my first meetings as the 
newly confirmed Secretary of Commerce were with the Commerce 
staff. In those meetings I sought to identify and then address 
the key issues faced by the decennial census.
    My early concerns were heightened when, only two months 
into my tenure, the Census Bureau suddenly announced a 40 
percent cost overrun in one component, namely, the Census 
Enterprise Data Collection and Processing, CEDCaP, program, a 
critical part of the technology infrastructure for the 2020 
census.
    In terms of the broader decennial census, the prior 
administration's last lifecycle cost estimate in the--October 
2015 was $12.5 billion. When testifying before Congress in 
June, I did not accept that figure. Instead, I vowed to return 
to Congress after a thorough review with a vetted 2020 census 
lifecycle cost that I could support. The product of that review 
is what brings me here today.
    As promised, we assembled a team of experts to conduct an 
independent review of the estimate, and they have come back 
with numbers I can now stand behind as we continue our 
preparation for 2020. The team was comprised of financial 
management experts from the Department of Commerce, from the 
Office of Management and Budget, former census employees, two 
former technology executives with experience in rolling out 
complex systems, as well as other experts with extensive 
private sector experience.
    In conducting our review, we looked at the many concerns 
raised by the GAO and Members of Congress, including those on 
this committee about the Census Bureau's cost estimates. I am 
aware of the funding statistics presented by Ranking Member 
Cummings and can assure you that the $760 billion budget 
shortfall and its impact is encompassed within our new 
lifecycle projections.
    You will hear testimony from both the GAO and the Commerce 
IG discussing their concerns with the prior 2015 lifecycle cost 
estimate. For example, the GAO estimated that the IT budget 
would be at least $4.8 billion. Our estimate is $4.96 billion, 
so $160 million over the floor that the GAO estimated would be 
the correct number rather than the previously used one. I share 
their concerns, and their testimony will underline the need and 
justification for this new lifecycle cost estimate.
    GAO also points out that there are 43 technology systems 
involved in the 2018 end-to-end test. Only four of those 
systems had completed development and integration tests as of 
August 2017. And of the 39, a portion of the functionality has 
been deployed in the 2018 end-to-end test, but that is not yet 
true for the remaining 18. With so much still under 
development, the need for a contingency to address possible 
overruns seem self-evident. These are just a few examples.
    The IG provided another example regarding address 
canvassing where they found that it would cost at least three 
times the amount the Census Bureau estimated in 2015. We agree 
with that, and we have incorporated that into our numbers.
    On the whole, we found that the prior administration 
provided Congress and the public with overly optimistic 
assessments of both the ease of implementing new technologies 
and the cost savings they would provide. These issues were 
undoubtedly compounded by initial appropriation constraints.
    Also, procurement decisions created a series of silos, most 
of which had a small firm as the general contractor and a 
number of major firms as subcontractors, a very complex 
structure. Worse yet, many segments were on a time-and-
materials basis, and in my view, that's the most dangerous form 
of a contract. The prior administration also failed to follow 
basic management practices like using certified cost estimators 
and checking estimates against actual costs. We have addressed 
these failures and corrected the record with this new lifecycle 
cost estimate.
    We identified key areas where census programming would 
likely create costs above the 2015 estimate. Those include 
declining self-response rates, increased public concerns about 
privacy and cybersecurity, high levels of mistrust of the 
Federal Government, tightening in the labor markets since 2010, 
development and integration of new technologies and the complex 
array of contractors and subcontractors.
    This leads us to now project a revised lifecycle cost 
estimate of $15.6 billion. The increase includes contingency 
funding of $1.2 billion to address additional potential risks 
and associated challenges such as national disasters, 
potentially even lower self-response rates, the difficulty and 
cost of hiring 500,000 temporary workers in a tight labor 
market, and the complexity of developing and integrating 
multiple information technology innovations.
    Over 80 percent of the projected spending, over 80 percent 
will occur post-2018, so it's a very back-ended expenditure, as 
Congressman Cummings pointed out in his charts. And this rapid 
ramp-up in the future brings its own challenges to 
implementation and to cost control. Our $1.2 billion reserve, a 
contingency of 10 percent of the post-2018 budget, on top of 
the independent cost estimate level, will be managed at the 
secretarial level and used only if unforeseen developments 
occur. A 10 percent contingency is commonplace in estimating 
complex private-sector projects. Government tends not to set up 
reserves but instead funds overruns in subsequent appropriation 
requests.
    Our new $15.6 billion 2020 census lifecycle cost estimate 
includes a request for a $187 million adjustment for fiscal 
year 2018. We are working with our House and Senate 
appropriators on this request. These funds would allow us to 
make a significant course correction to keep crucial programs 
on track and provide much-needed financial oversight and better 
management at the Census Bureau. The Census Bureau and the 
Department of Commerce will be held accountable to manage the 
2020 census efficiently while maintaining the highest quality.
    The Under Secretary for Economic Affairs Karen Dunn Kelley 
has been in place since late August and has direct oversight 
over the 2020 census, the Census Bureau, and the Bureau of 
Economic Analysis. She brings over three decades of management 
experience in the financial investment sector with experience 
managing people, strategy, budgets, operations, public 
relations, and thought leadership across the globe.
    Seasoned and experienced senior management is also in place 
at the Census Bureau itself. Ron Jarmin, performing the 
nonexclusive duties and functions of the director of the U.S. 
Census Bureau, and Enrique Lamas, performing the nonexclusive 
duties and functions of the deputy director and chief operating 
officer of the U.S. Census Bureau, are jointly leading the 
census, and each has nearly three decades of experience in 
census.
    Commerce now conducts weekly 2020 census oversight reviews 
and will require metric tracking and program execution status 
on a real-time basis. Commerce also has monthly meetings with 
OMB, census program managers, and Commerce's 2020 leadership 
team, headed by Under Secretary Kelley to review issues related 
to the program's budget, scope, schedule, and risks. These 
management meetings include detailed reviews of the evolving 
budget and lifecycle cost estimate for the 2020 census. The 
results of these meetings are reported directly to me by Under 
Secretary Kelley and her staff, and we maintain a free flow of 
access and information so that I can personally oversee the 
progress of the decennial.
    We are now just 30 months away from the 2020 census. There 
are still many challenges ahead, and these additional resources 
I have described are urgently needed. But with the changes I 
have detailed and with the additional resources requested, I am 
confident we will have a full, fair, and accurate census.
    I look forward to working with this committee, your staff, 
and the rest of Congress over the months and years to come, and 
I thank the committee for the opportunity to come before you 
today. I look forward to your questions.
    [Prepared statement of Secretary Ross follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Thank you, Mr. Secretary.
    The chair now recognizes the gentleman from Tennessee, Mr. 
Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    And, Mr. Secretary, thank you for being with us. And I have 
two questions. I will just asked them both so we get them in. 
Many of us who were here at the time of the last census 
received a lot of complaints about this American Community 
Survey, and some privacy advocates were very critical. And our 
colleague Ted Poe has led a charge against this. He called that 
survey, quote, ``an unnecessary and completely unwarranted 
government intrusion,'' and he has led a charge to make that 
survey voluntary. And I am wondering if you have looked into 
that to see if you can make that survey a little less intrusive 
so that we won't get as many complaints this time as we did the 
last time.
    And secondly, the second question I have is many States are 
going to be trying to do everything they can to make sure that 
they don't lose a Member of Congress or maybe that they pick up 
one, and many Federal appropriations are based on population. 
Can you assure us that steps are being taken or are you 
satisfied that things are being done so that no States can 
inflate their populations in those kinds of--with the goal of 
getting more money or another congressional seat?
    Secretary Ross. Well, thank you. Those are two questions. I 
will try to answer them in sequence. The American Community 
Survey is one of the Department of Commerce's most valuable 
data products, and it's widely used in the business community 
to make decisions. A voluntary survey would have a negative 
effect on the reliability of the data, especially for rural and 
small communities. At the same time, the Census Bureau 
continues to look for ways to reduce the burden on respondents 
such as removing questions by using other data sources, 
including information that people have already provided to 
government in a different form. So we're trying to reduce the 
scope of the burden as a means of making it easier for people.
    In terms of trying to assure that we really do count 
everyone, we've made a number of changes. First of all, the 
communications budget for the 2010 decennial census was $350 
million, and that included outreach to non-primary English-
speaking communities. We have increased that budget to $500 
million this year or for 2020, and that equates to an 
inflation-adjusted $420 million that would have been in 2010. 
So we have had a material step up in the communications budget.
    And in the 2010--2020 census, about half of that will go 
for our partnerships, the various faith-based and other 
community organizations that help us get to the more difficult-
to-enumerate parts of the population. So we are keenly aware of 
the need for even greater effort than was used before.
    And finally, we have added internet response as an 
additional tool to make it more convenient for that portion of 
the population that likes to use internet. So we have made a 
number of very specific modifications, all of which we believe 
will lead to the end result of a more accurate and more 
complete census.
    Mr. Duncan. All right. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Ross, Secretary Ross, in 2012 Congress directed the 
Bureau to spend less than the 2000 census, and I quote, ``not 
adjusting for inflation,'' end of quote. Since that time, 
Congress has basically starved the Bureau of funds and has 
appropriated less than the Census Bureau requested in every 
single fiscal year since 2012. And this must have negatively 
affected the Bureau's investments in new technologies. Is that 
right? In other words, did it affect your investment in new 
technologies, sir?
    Secretary Ross. Well, the expenditures you're describing, 
if I understand it correctly, are the ones prior to the present 
period. And I have seen the chart, and it roughly parallels--
even though the distribution year-by-year isn't the same, the 
2020 one roughly parallels the expenditures for the 2010 
census.
    The 2020 census is heavily back-ended, as were the prior 
ones, but it's even more so because of the nature of the 
technological changes that we're making. So if you would 
superimpose on your chart and in the supplemental material that 
I file after today, I will fill in the blank for you and show 
you how our projected budget for 2020 would compare both with 
the fluctuations, the amplitude in the prior ones, and you will 
see we are coming to a significantly higher absolute level than 
they had been.
    Mr. Cummings. Okay. In previous decades this is the year, 
year eight when there are larger funding increases as the 
Census Bureau historically ramps up towards census day. 
However, the Trump administration did not seem to recognize 
this precedent earlier this year. The President requested only 
a 1.8 percent increase in funding for the Bureau in fiscal year 
2018. Is that right?
    Secretary Ross. I believe so, and I believe that was based 
on the information he then had from the prior management of 
census.
    Mr. Cummings. Well, you presented our committee with data 
last week showing that this level of funding is inadequate and 
could impair our ability to provide for a fair and accurate 
census. You are now requesting an additional $187 million to 
make up for what your Department termed a, quote, 
``shortfall,'' end of quote, in the budget request for fiscal 
year 2018. Is that figure correct?
    Secretary Ross. Yes, sir. I believe we do need $187 
billion--million more than was in.
    Mr. Cummings. And OMB supports that request, is that right?
    Secretary Ross. I'm sorry?
    Mr. Cummings. And OMB supports that request?
    Secretary Ross. That's my understanding.
    Mr. Cummings. You also informed the committee last week 
that you at the Commerce Department, as well as the Census 
Bureau, believe that you need more than that amount to fully be 
prepared for all eventualities. You asked for an additional $50 
million to cover contingencies that almost certainly will 
occur. Is that correct?
    Secretary Ross. Yes, sir.
    Mr. Cummings. But OMB denied this request, isn't that 
right?
    Secretary Ross. I don't know ----
    Mr. Cummings. For the contingencies.
    Secretary Ross. I don't know that they have taken a 
position on the overall lifecycle cost. Our focus, because of 
the urgency of the budget, had been on getting their support 
for the immediate request for an additional appropriation.
    Mr. Cummings. Do you know whether that came to the 
attention of Mr. Mulvaney?
    Secretary Ross. Well, it's been brought to Mr. Mulvaney's 
attention ----
    Mr. Cummings. Okay.
    Secretary Ross.--by me.
    Mr. Cummings. And I see I am running out of time, but do 
you know if the President is aware of your request for the 
additional $50 million?
    Secretary Ross. I have not personally spoken to the 
President about it.
    Mr. Cummings. Last question. So what will happen if 
problems arise? How will you obtain funding to cover them?
    Secretary Ross. Well, we believe that the $187 billion will 
cover us through the fiscal year 2018. We're reasonably 
comfortable with that. The bigger risk comes after 2018 because 
that's when 80-plus percent of the money will be spent.
    Mr. Cummings. Right.
    Secretary Ross. So 2018 we think is pretty high visibility, 
pretty well within hand. It's post that period that needs that 
big contingency.
    Mr. Cummings. All right. Thank you, Mr. Chairman.
    Chairman Gowdy. The gentleman yields back.
    Mr. Comer from Kentucky.
    Mr. Comer. Thank you, Mr. Chairman. The Bureau's 
contracts--I'm going to ask a question about the contracts-- 
are set up as time-and-material contracts, which means there 
are limited incentives for contractors to control labor hours 
and costs. To your knowledge, what was the thinking behind this 
type of contract?
    Secretary Ross. I have no idea, sir. I have been less 
worried about re-exploring the past than about trying to make 
sure we get our arms around the future.
    Mr. Comer. What do you think the Department can do to 
manage these contracts more effectively?
    Secretary Ross. Well, we're interacting quite aggressively 
with the contractors, and that's about all that we can really 
do. The--many of the contracts have very severe cancellation 
provisions and would be very disruptive to cancel at this stage 
in the game in any event. So I think we have to manage through 
the process pretty much with the existing group of contracting 
parties. But the intensity of interaction I can promise you is 
a lot more than it had been.
    Mr. Comer. Okay. One more quick question, Mr. Secretary. 
With respect to IT, are you concerned that certain IT products 
and systems may not be delivered in their final form and time 
for testing during the 2018 end-to-end test?
    Secretary Ross. So far as we can tell, the ones that are 
incomplete are reasonably unscheduled, but it's always the last 
10 percent that's the devil. Just like in any contract, the 
devil's in the details.
    Mr. Comer. Okay. Well, thank you, Mr. Secretary. It is an 
honor to have you here. I am a big fan of yours when you were 
on CNBC a lot over the years ----
    Secretary Ross. Thank you.
    Mr. Comer.--but I yield back, Mr. Chairman.
    Chairman Gowdy. The gentleman yields back.
    Mrs. Maloney.
    Mrs. Maloney. Thank you. First of all, Secretary Ross is 
from the great State and city of New York ----
    Secretary Ross. Yes.
    Mrs. Maloney.--and I would like to welcome you here today 
and thank you for your public service.
    Secretary Ross. Thank you.
    Mrs. Maloney. In your comments you seem very committed to 
getting an accurate count, which is mandated in our 
Constitution, but if you look at the spending levels--granted, 
you are just new in this job, but for the census for 2020, the 
spending, the red line is way behind, you know, the prior 
censuses from 2010, 2000, 1990. And as a businessman ----
    Secretary Ross. Could you raise the chart a bit? I can't 
see the whole thing. Okay. Thank you.
    Mrs. Maloney. You know what, let's take it down and give 
him one of these. But anyway, this is a chart that we have on 
the ratio of the census budget to year one of the decade. But 
in any event, as a businessman, it is hard to achieve the 
results without spending, so I certainly support your spending 
requested $187 million. I think it is a good start, but I don't 
think it is good enough. You have a lot to catch up on. Several 
of the dress rehearsals were canceled. The foreign-language 
rehearsals canceled. This is a major undertaking. It is one of 
the major undertakings of our country. And if we don't have a 
good census, you know we don't have good data for government 
policy or business policy, so I want to know what you are doing 
to address the immediate problem.
    And as I understand it, your increase of $187 million is 
basically for IT work, but in your new lifecycle estimate, you 
identified seven major cost drivers, and the first two of these 
are all about public confidence, public response, and public 
concern. And these cost drivers can be addressed through 
education and outreach and promotion of the census, and we have 
seen that before.
    The 1990 census was called a failure because there was a 
declining response rate, so in 2000, the 2000 census, the 
Congress allocated more money and called for a paid advertising 
campaign and for partnership outreach and all types of efforts 
to build up participation. And both in 2000 and 2010 we were 
successful in increasing the public response rate, which is 
what it is all about, getting people to participate. But by 
getting the public response rate up, it was critical in keeping 
the expensive follow-up methods that you have to do if there is 
an undercount, so that is very important.
    Now, I read recently in the Washington Post that the ad 
contract Congress mandated for the 2020 has not been funded 
yet, and the partnerships have not been fully filled, and the 
census has to start early to be successful, so these 
partnerships with communities like the NAACP, like La Raza, 
like the Hispanics and LGBT community, you have to fill those 
contracts, and they haven't been filled with people yet as I 
understand. And nowhere in your testimony or your documents do 
you propose fully funding the ad contract as originally 
planned, let alone increasing the contract to start addressing 
the later start in tracking these cost drivers that you 
identified in public outreach.
    So, yesterday--I am supporting your efforts, Mr. Secretary. 
I introduced the 2020 American Census Investment Act, which 
would provide more funding for the census and mandate that 
funds be used on promotion, education, outreach, in addition to 
the IT that you are addressing. And I just would like to hear 
your comments on that on whether or not you will be funding.
    By the way, I want to thank Ranking Member Cummings for 
supporting the bill and the efforts to increase funding for it.
    And do you feel that--will you be funding the ad contract? 
Will you be funding the partnership outreach? Will you be 
funding education and outreach to get participation up in the 
census?
    Secretary Ross. Well, thank you, Congresswoman Maloney. I 
am not used to being granted more money than I asked for, so 
that's a totally new experience for me.
    Mrs. Maloney. We want to make sure we get an accurate 
account, and as you look at this chart, we are way behind 
spending in the prior censuses in this decade.
    Secretary Ross. Well, as I said earlier to Ranking Member 
Cummings, we believe that that cumulative shortfall of the $176 
million and its impact on the overall program is made up for by 
the funding we've requested in the total lifecycle cost.
    Mrs. Maloney. Will you be investing in promotion and 
education and advertising?
    Secretary Ross. Yes, we are investing in all sorts of 
things. For one thing, our communications budget will be $500 
million as opposed to the $350 million that was spent in 2010. 
Inflation adjusting the 2010 would bring it to $420 million, so 
we're running $80 million more than--on an inflation-adjusted 
basis than the 2020. In addition ----
    Mrs. Maloney. My time is almost up. The economic survey, is 
that on track, the economic survey?
    Secretary Ross. I think so, so far, but that's not the most 
urgent part of the problem of the communications. What we're 
doing is several things. We have more ways that people can 
respond than ever before. We're doing more language training 
than before. For example, we've introduced telephone call 
centers, and they will have the capability of operating in 10 
languages, naturally including Spanish, but our population is 
more diverse than just that. So the call centers will be able 
to do up to 10 languages.
    In addition, the census enumerators will be able to provide 
support through the nature of people we select in multiple 
languages. We're trying to match the characteristics of the 
enumerators to the characteristics of the population in the 
area that they will be surveying.
    As to the partnerships, we certainly agree that those are a 
big key, and those will include national organizations, State 
and local governments, churches, and other faith-based 
organizations, health clinics, legal aid centers, and other 
support mechanisms, so we're trying to work with all of those. 
And the partnership program will consume approximately half of 
the $500 million budget for communications. It's about $248 
million will go for the partnerships. So we believe that we are 
dealing adequately with the need for those.
    Chairman Gowdy. The gentlelady ----
    Mrs. Maloney. Thank you. Thank you very much.
    Chairman Gowdy. The gentlelady yields back.
    The gentleman from Texas, Mr. Farenthold.
    Mr. Farenthold. Thank you, Mr. Chairman.
    I am over here in the corner, Secretary Ross, other 
direction.
    Secretary Ross. Oh. Oh, sorry.
    Mr. Farenthold. I have got a couple of questions for you. 
It seems to me that the Census Bureau has this attitude of we 
have got to do it ourselves and aren't looking to products that 
may be already out there or companies that we might be able to 
contract with to save some money.
    For instance, it is my understanding that the Census Bureau 
have received numerous recommendations, including some from the 
GAO and the Census Scientific Advisory Committee, as well as 
the private sector how the Census Bureau could better use 
commercial mapping and GIS--that is geographic information 
technologies--which would yield a large cost saving and 
increase productivity. However, to date the Census Bureau 
doesn't appear to have recognized or implemented any of these 
recommendations. How come we haven't been looking at some 
things like that?
    Secretary Ross. Well, there were very many private 
organizations contacted in the original process. I can't 
vouchsafe the process by which they made the final selections 
they did. That, as you know, basically occurred years before. 
But we are dealing with the contracts that we do have. We 
believe that these are qualified people, and we believe that we 
will be able to get the job done if we get the additional 
funding that we have requested.
    Mr. Farenthold. Well, can you maybe provide ----
    Secretary Ross. In terms of lessons learned, one of the 
things we intend to do as we go along is to keep careful track 
of further improvements that should be made in subsequent 
censuses.
    Mr. Farenthold. I ----
    Secretary Ross. I think with having only 30 months between 
now and the 2020 decennial, making radical changes would 
probably guarantee that we didn't get it right.
    Mr. Farenthold. I am a little concerned about the path we 
are on not getting there, too, but if you could get me a list 
of some of these proposals and recommendations, I sure would 
like to take a look at them. I mean, just as an old computer 
guy, we do the census every 10 years, and there are very few 
computer systems that have an effective life beyond 10 years, 
so we are going to gear up with this new computer system in 
2020. And here we are in 2030, we are going to be sitting here 
doing the exact same thing when it seems to me you could get 
with a cloud service that is secure. We have got those that the 
government uses now, and get an application written for 
people's phone. This seems a whole lot simpler.
    And this cloud service that we would use would buy the 
computers and size them the way they need to be sized so they 
worked, and then when we are done with needing that massive 
capacity, they are there for them to use for their other 
clients. And to me that just makes economic sense. Rather than 
trying--this government attitude of we have got to do 
everything ourselves, especially in IT where I think the 
government really struggles--we are damned by some of our own 
contracting laws on that--it just seems like this is a great 
opportunity to look for some cost savings.
    And, you know, it is something that I brought up to your 
predecessor several years ago, but apparently it fell on deaf 
ears. So I ----
    Secretary Ross. Well, we do believe that the cost will come 
in below the inflation-adjusted cost of the 2010 census, 
notwithstanding that there are the overruns. My predecessors 
estimated that the inflation-adjusted cost of 2020 using the 
2010 methodology would have been $17.5 billion, so we are way 
more than $1 billion below that with all the problems that have 
occurred.
    Second, in terms of using existing databases, we do what we 
can. For example, we are making a lot of use of administrative 
records, the postal system records, local--the IRS records, 
Social Security records to check IDs, things of that sort. But 
the truth is Americans are a very mobile population. Something 
like 12 percent relocate each year.
    Mr. Farenthold. And I do--I am running out of time. I do 
want to make one more comment. I do think the Postal Service is 
an unused government resource that could be more help to the 
census than I think they are currently using. You have got 
Postal Service employees that visit almost every American 
residence five, six times a week, so I think there is a great 
resource there that may be underutilized.
    My time is expired, but if you would like to comment 
further, I am sure the chairman would ----
    Secretary Ross. We are. We're using the Postal Service and, 
as I say, the IRS, Social Security, Medicaid, Medicare records, 
the Indian Health Service, every database that we can imagine 
because we really are trying to make sure we count everyone and 
that we count everyone one time.
    Chairman Gowdy. The gentleman from Texas ----
    Mr. Farenthold. Thank you, sir. I yield back.
    Chairman Gowdy. The gentleman from Texas yields back.
    The gentleman from Missouri, Mr. Clay, is recognized.
    Mr. Clay. Thank you, Chairman Gowdy.
    And also, thank you, Secretary Ross,--on the top--for your 
testimony today.
    Secretary Ross. Sorry. I don't know the geography of the 
committee well enough ----
    Mr. Clay. I understand.
    Secretary Ross.--where everybody is sitting.
    Mr. Clay. I understand. And really, the census is about 
three things: money, information, and power. And no community 
or State wins if we fail to get this right. And our nation will 
be the ultimate loser.
    And as you all know, our country is more mobile, as you 
said, and much more diverse than ever before. And sadly, in 
some parts of our nation, residents have a high level of 
distrust for the Federal Government, which makes them less 
inclined to take part in the census. That is true in urban 
communities like the one that I represent in St. Louis, which 
always struggles with a lower self-reporting response. And 
generally, across the nation, African Americans, Latinos, 
Asians, new immigrants, and the rural poor are at a much 
greater risk of not being counted, a costly mistake they will 
pay for for an entire decade. And that is why underfunding the 
census 2020 outreach programs to hard-to-count groups is such 
an enormous bipartisan threat to every state and every district 
that we represent.
    And I guess I want to start the line of questioning 
following up on Ms. Maloney's questioning. Hard-to-count, hard-
to-reach audiences and lack of funding for this initiative, Mr. 
Secretary, which is part of your communications contract, must 
receive the full attention of your administration. And I say 
that because the component of the communications contract 
needs--they need to be made full partners in the communications 
effort because that is where the challenge will be on how we 
get to those hard-to-count populations. So if I could just hear 
your concerns about that ----
    Secretary Ross. Surely.
    Mr. Clay.--and where we are going with it.
    Secretary Ross. Surely. The entity overall in charge of 
communications is Young & Rubicam ----
    Mr. Clay. Yes.
    Secretary Ross.--which also was involved in the 2020 
decennial. So, first of all, we have the institutional 
knowledge that they gain by their role 10 years ago. Second, 
the--they have retained something like 15 individual firms that 
specialize either in different forms of media or different 
ethnic groups, so we tried to pinpoint. Further, I may not have 
made it clear in what I said before, but the $500 million of 
communications is in addition to the $248 million for the 
partnerships. So altogether we're spending $748 million on this 
outreach initiative. And when you consider how many total 
households there are, that's quite a bit per household. And if 
you take out of that the ones that are easy responders, you'll 
find we're spending an enormous amount per household on the 
ones that are difficult to reach. And that is quite a 
deliberate thing.
    We have been conservative in our estimate of those who will 
give voluntary response. Last census was 63.5 percent. We're 
assuming that that may drop down to 55 percent. So we've 
assumed--despite massive communications, we've assumed that a 
higher percentage of the population will still need the foot 
soldiers clogging around ringing doorbells.
    Mr. Clay. Sure. And your partnership program also calls for 
testing of communications methods, all communications elements.
    Secretary Ross. Yes, sir. Yes, sir.
    Mr. Clay. And that has been canceled for 2018, so how will 
these elements be tested adequately?
    Secretary Ross. Well, it hasn't been canceled; it's just 
been postponed.
    Mr. Clay. It has been postponed ----
    Secretary Ross. Yes.
    Mr. Clay.--so sometime in the calendar year of 2018 ----
    Secretary Ross. Yes.
    Mr. Clay.--it will be tested?
    Secretary Ross. Yes.
    Mr. Clay. And I thank you for that response, and I yield 
back.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Georgia, Mr. Hice, is recognized.
    Mr. Hice. Thank you, Mr. Chairman, and I appreciate you 
being here, Mr. Secretary.
    Who is responsible to deliver the IT products on time?
    Secretary Ross. Who is responsible? Well, the Census Bureau 
is responsible, and they have a whole series of contracting 
parties. If you count them all up, there are probably 100 
individual entities.
    Mr. Hice. But at the end of the day somebody has got to be 
responsible that the product is delivered.
    Secretary Ross. Well, ultimately me at Commerce and Karen 
Dunn Kelley has the oversight of census.
    Mr. Hice. So why are the IT products not delivered on time? 
What is the holdup?
    Secretary Ross. Of?
    Mr. Hice. For the delivery of the modernization IT 
products. Here we are going to end-to-end and we don't have 
what we need.
    Secretary Ross. Well, I think the original estimates as to 
how long it would take and how much it would cost to get to 
those products were flawed, so some of it may be contractor not 
performing as well. I can't judge what went on prior to the 
present, but I think it's a combination of over-optimism on the 
part of census and maybe some errors on the part of the 
contractor.
    Mr. Hice. So is there any accountability, is there any 
penalty for not delivering on time what was promised to be 
delivered?
    Secretary Ross. Well, each contract is different, but when 
you are on a time-and-materials contract, the concept of 
penalty doesn't really work very well. That's why ----
    Mr. Hice. So we are just going to have ambitious--we hope 
to deliver but we won't deliver, and there is no 
accountability.
    Secretary Ross. There's not as much accountability as there 
would have been if there were fixed-price, fixed-time 
contracts, but that's not the situation that we're faced with.
    Mr. Hice. So when do we have--when can we possibly even 
guess under these circumstances that we will receive what we 
have?
    Secretary Ross. Well, we have given more than what we think 
is a guess. We have done lots of work out in the field. We've 
done lots of analysis of what's been done thus far, lots of 
analysis of the contracts, and we believe that this budget 
phased in the way that we have proposed will deliver the 
product that we need.
    Mr. Hice. Well, I don't share your optimism. I don't see 
how in the world you can either with the type of situation we 
are dealing with.
    And then you look at cybersecurity. How confident are you 
that this information gathered with an IT that hasn't even been 
tested is going to be secure?
    Secretary Ross. Well, in today's world you can't be sure of 
anything in terms of cybersecurity, but I can assure you the 
systems we're putting in are far more robust than anything that 
has ever been done before in census.
    Mr. Hice. Well, I know last year the CIO for Bureau made a 
similar statement, said he had great confidence that the 
cybersecurity was intact, and yet the system hadn't even been 
tested. How in the world can you have that kind of confidence 
on something we know nothing about?
    Secretary Ross. Well, first of all, I didn't say I have 
confidence that it's impenetrable. What I said is it's a lot 
more robust than had been true in 2010.
    Mr. Hice. How do you know that is my question.
    Secretary Ross. Because of discussions with the people who 
are doing the implementation of it.
    But having said that, I'm not aware that there's any system 
that's flawless.
    Mr. Hice. Sir, so you are giving great confidence to us 
about the cybersecurity based on conversation.
    Secretary Ross. No ----
    Mr. Hice. Conversation is not enough to give us the 
assurance that this information is protected.
    Secretary Ross. What I'm telling you, sir, is that the 
systems themselves will be far more robust than anything census 
has used before.
    Mr. Hice. And yet we have not seen those systems?
    Secretary Ross. Well, no, because they're works in 
progress.
    Mr. Hice. So it's all based on conversation, not on tests? 
This is all part of the problem. We get promises that are never 
delivered on, and we get--now, we have cybersecurity promises, 
commitments that are the most robust thing we have ever seen 
before, but it is simply based on conversation, not on tests. 
It looks to me like we are going to go back to the same thing 
that happened in 2010 when we were promised all kinds of 
modernization, but it was a faulty IT program, so we end up 
with a paper-based census. I don't see how we can proceed with 
this any further without going back to paper-based and just be 
honest with what we are dealing with.
    Secretary Ross. Well, it's impossible to test something 
that doesn't yet exist. Eighty percent ----
    Mr. Hice. My point precisely.
    Secretary Ross. Eighty percent of the spending will be 
post-2018. But let me describe to you what it is that we are 
doing. All of the data on the census systems are being 
protected. We're applying some rigorous security protocols to 
the perimeter of the census' own network. The census has an 
existing network, so we're applying rigorous protocols to that. 
We're putting in routers and firewalls. We also have our own 
detection intrusion and prevention systems in place at census. 
Census Bureau now has an unprecedented level of engagement with 
the best resources elsewhere in the Federal Government. We're 
working closely with cybersecurity experts across the 
Department, including NIST, which is part of Commerce, the 
Federal CIOs office, the Department of Homeland Security, and 
the intelligence and law enforcement communities. We're also 
putting a new level of cybersecurity Federal management in 
place for the 2020 census over and above what was done in 2010.
    Mr. Hice. Mr. Secretary, all due respect, our time is gone. 
I know we want to respect the time. I appreciate your answers. 
They just sound like talking points to me with not much beyond 
that.
    I yield back.
    Secretary Ross. You can't test something that isn't in 
place.
    Chairman Gowdy. All right. The gentleman yields back.
    The chair will now recognize the gentlelady from the Virgin 
Islands, Ms. Plaskett.
    Ms. Plaskett. Yes, thank you, Mr. Chairman. Thank you for 
having this committee hearing.
    Good morning, sir. How are you?
    Secretary Ross. Good, ma'am.
    Ms. Plaskett. Good. I wanted to ask you some questions 
which of course are something that is on the minds of quite a 
number of Americans right now is undertaking census in areas 
that have recently been ravaged by disaster and the mechanisms 
and processes that are potentially in place to be able to do 
that. We know that millions of Americans have been displaced by 
Hurricanes Harvey, Irma, and Maria in the States of Texas, 
Florida, and in the areas of Puerto Rico and the Virgin 
Islands.
    As the communities work tirelessly to rebuild, large-scale 
changes are likely to occur that, I would assume, would greatly 
impact the 2020 census. If we have learned anything from 
Hurricane Katrina in 2005, it is that recovery from large-scale 
natural disasters take time and often quite a lot of that time.
    A 2011 report by the Leadership Conference on Civil and 
Human Rights illustrated that challenges to enumeration 
activities still exist in the Gulf region in 2010, almost five 
years after Katrina took place. And the report highlighted 
issues such as large numbers of individuals in temporary 
housing, informal housing arrangements, high rates of vacant 
units, significant changes in both new housing stock, and 
population shifts in those affected areas.
    Mr. Secretary, do you agree that the Bureau is likely to 
encounter many if not all of these challenges due to the 
destruction caused by this year's hurricanes and perhaps future 
hurricanes before the census takes place?
    Secretary Ross. Well, you're surely right in pointing out 
issues. Here's what we're doing. During the 2010 census they 
changed the operations in the areas that were hit by Katrina 
and Rita. Basically, what it involved was putting more people 
on the ground to deliver questionnaires directly to housing 
units and updating the addresses while doing so.
    We can do something similar in 2020 as needed. If it does 
turn out that we need that, it will cost more money, but we've 
tried to allow an amount for these types of contingencies, 
provided that the natural disasters are not more extreme than 
we've experienced in the past.
    In addition, we have a particular problem in the U.S. 
Virgin Islands and for that matter in Puerto Rico. We conduct 
the decennial census in those territories by working directly 
with territorial governments to build and implement the 
operations that best fit their respective situations. We're 
currently developing our approach for the 2020 with the 
government of the Virgin Islands and will ensure that the 
operations take into account the impact of the recent 
hurricanes.
    Ms. Plaskett. Excuse me, sir. When you say particular 
challenges, what have you seen in the past as being uniqueness 
of trying to find census data in areas like Puerto Rico and the 
Virgin Islands besides the obvious that I know, which is that 
we don't have street addresses?
    Secretary Ross. Right. Well, as you know, the census has 
confronted those basic problems over and over and over.
    Ms. Plaskett. Yes.
    Secretary Ross. So every time that they've gone through it, 
they've learned something from the process. The difficulty we 
have now is that the issue with residence has been terribly 
compounded by the awful destruction that occurred. So the 
magnitude of the task has become greater than it ever had been.
    Ms. Plaskett. And will your budget reflect the magnitude of 
these hurricanes?
    Secretary Ross. We have tried our best to do so.
    Ms. Plaskett. And I know in the past that you have done a 
good job of not just partnering with the local governments but 
with community organizations as well, that they have been 
somewhat a boots-on-the-ground for you.
    Secretary Ross. Oh, absolutely. Absolutely. And that's why 
we have allocated $248 million for partnerships with local 
community organizations.
    Ms. Plaskett. Okay. Thank you. Thank you very much. I yield 
back.
    Chairman Gowdy. The gentlelady from the Virgin Islands 
yields back.
    The gentleman from Alabama is recognized.
    Mr. Palmer. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here today.
    I understand some of the frustration that my colleagues 
have expressed, and to give you an example, the GAO and the 
Office of Inspector General have cited a number of issues with 
the Census Bureau that honestly you inherited to be totally 
truthful about it. But the frustration is that these don't 
appear to have been adequately addressed. For instance, the GAO 
included the 2020 census on its high-risk list for 2017. In 
fact, over the last three years, they have issued 30 
recommendations, but as of January this year, only six have 
been implemented. Are you familiar with this list?
    Secretary Ross. Well, we have been working closely with the 
GAO. You will be hearing from them a bit later. And we are 
cooperating with them in their audit of the work that we've 
been doing.
    Mr. Palmer. My question, Mr. Secretary, and we only have 
five minutes and I want to give you an opportunity to answer 
this as--a yes or no would be sufficient. Are you familiar with 
this list of 30 recommendations?
    Secretary Ross. I couldn't hear you, sir.
    Mr. Palmer. Are you familiar with this list from the GAO, 
the 30 recommendations that they have made in the last ----
    Secretary Ross. Oh, sure.
    Mr. Palmer.--three years?
    Secretary Ross. Sure.
    Mr. Palmer. And you are aware that only six have been 
implemented--have been followed up on as of January of this 
year?
    Secretary Ross. As of January, that was true. I believe 
there's been some further progress since then and there will be 
continuing progress.
    Mr. Palmer. I think it is extremely important that when the 
GAO or the OIG make recommendations when they have findings of 
issues that Federal agencies, Federal departments act on them. 
I mean, it is frustrating to the folks who are doing the work. 
It is frustrating to us in our oversight capacity. And it is 
not just with the Census Bureau. This has occurred in other 
agencies, but there is a mounting frustration that we identify 
problems and they don't get addressed.
    So my question to you, sir, is this a top priority, mid-
level? I mean, how serious are you taking these?
    Secretary Ross. Well, it certainly is a top priority, and, 
you know, I think you'll find the OIG testimony pretty well 
mirrors the top management challenges report that we put 
together. What happened prior to January of this year I can't 
account for.
    Mr. Palmer. I ----
    Secretary Ross. I was confirmed February 28, so ----
    Mr. Palmer. I realize that, and I made that clear that you 
inherited most of these problems, but the thing that we want to 
know is that under your leadership that this is taken 
seriously.
    Secretary Ross. Oh, it is.
    Mr. Palmer. I mean, the cost estimates, for instance, we 
have known this--the GAO began questioning that in 2008.
    Secretary Ross. No, it certainly is, and my testimony today 
focused on a lot of it. One of their recommendations is the 
Bureau needs to manage the risks of implementing innovation. 
Well, you heard my testimony. I totally agree with that, and we 
are much more heavy-handed in the management than there had 
been before.
    Second, the Bureau continues to face challenges in 
implementing and securing key IT systems, 100 percent true for 
sure. And the 2018 end-to-end test will probably reveal some 
more deficiencies that we'll have to deal with.
    Mr. Palmer. But my colleague from Georgia expressed 
frustration with the testing process, and I appreciate your 
response that you can't test a system until the system is in 
place, but ----
    Secretary Ross. Right.
    Mr. Palmer.--the Bureau has had a number of problems in 
terms of failing to adequately test systems and products, and 
when they do test them, they are not using the results to 
inform their decision-making.
    Secretary Ross. Well, we will.
    Mr. Palmer. Well, that is comforting to know, and I am 
certain under your leadership that that will happen, but that 
is one of the frustrations again that we have is that you have 
the GAO, the OIG, this committee making recommendations, and it 
is not just the Commerce Department or the Census Bureau. This 
has happened a number of times with other agencies, but we want 
to make sure--this is such a serious issue, we want to make 
sure that systems are tested and the results are used in 
decision-making.
    Mr. Chairman, I appreciate the opportunity to submit the 
questions ----
    Secretary Ross. Absolutely.
    Mr. Palmer.--and I yield back.
    Secretary Ross. And the IT part was a very key one in the 
GAO recommendations. And as I had mentioned earlier, our budget 
is more than what they felt was the minimum required. They came 
in thinking that--as opposed to I think it was $3.6 billion 
that the former administration had estimated, I think they 
recommended $4.8 billion or more. We came in at $4.96 billion. 
So we are not ignoring any of those recommendations, not by a 
longshot.
    Chairman Gowdy. The gentleman from Alabama yields back.
    The gentlelady from Florida is recognized.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    And, Secretary Ross, thank you so much for being with us 
today.
    You have already talked about undercounted populations, but 
this issue has been in the news recently because of a lawsuit 
filed by the NAACP which it filed in part because of concerns 
about the undercount of communities of color, young children, 
home renters, low-income persons, and rural residents. I am 
concerned that the undercount could be exacerbated in 2020 if 
minority groups are less inclined to share personal information 
with the government due to the climate of mistrust created by 
this administration's immigration policy.
    Secretary Ross, can you assure immigrant families and 
other--it is a bad word but--marginalized groups that their 
data will be kept confidential and not used to pursue any law 
enforcement or immigration action?
    Secretary Ross. I believe it would be illegal for those 
data to be used for other purposes, so unless someone commits a 
crime, I don't think that's going to happen. But on the NAACP 
lawsuit, they filed a Freedom of Information Act request with 
us on the June 29th.
    Mrs. Demings. Secretary Ross, excuse me just a second. So 
you are saying if the information was used for law enforcement 
purposes or for immigration policies, that that would be 
illegal?
    Secretary Ross. My understanding is that the information 
about specific individuals is not to be used for any other 
purpose but ----
    Mrs. Demings. And using it would be illegal is--I am just 
trying to understand that that is what you are saying.
    Secretary Ross. I am not a lawyer, so I can't parse that, 
but as I understand it, it is not to be used for any other 
purpose.
    Mrs. Demings. Okay. Well, you know, one way--I know you 
have also spoken about partnership programs, and certainly I 
believe that additional programs of that nature may lessen some 
of the concern. How many partnership specialists have you hired 
and how many do you anticipate hiring by census day?
    Secretary Ross. Oh, there are quite a few. Let me see if I 
can get you the exact number.
    Mrs. Demings. Okay. And while you are looking for that, I 
think ----
    Secretary Ross. Well ----
    Mrs. Demings.--my colleague Mr. Clay talked about testing 
of new processes ----
    Secretary Ross. Okay.
    Mrs. Demings.--particularly ----
    Secretary Ross. The answer is 40, 40 people.
    Mrs. Demings. Forty? And how many do you anticipate hiring 
by census day or is that the total number?
    Secretary Ross. Forty I believe is the total number.
    Mrs. Demings. Okay.
    Secretary Ross. To date.
    Mrs. Demings. To date, okay. Thank you very much. Any 
anticipated numbers by census day at this point?
    Secretary Ross. Well ----
    Mrs. Demings. We aren't sure?
    Secretary Ross. We'll see how much comes in. A lot of 
firms--a lot of community organizations are well aware of the 
census, have participated in it before, and are signing up 
themselves. So depending on whether we get a good flow, 
consistent with improving it over the last time, that'll 
determine how many people will need it.
    Mrs. Demings. Okay. Thank you for that. I know you also 
spoke about testing of new procedures. I would like to talk 
particularly about in rural island and tribal areas and also 
tie in those procedures to the budget constraints that we 
currently face. Secretary Ross, what are you doing to ensure 
that these new processes will work smoothly in rural island and 
tribal areas?
    Secretary Ross. Well, the tribal areas are one of the 
specific segments that are being tested so that we can get 
real-world results, seeing how the procedures that we've 
introduced work.
    Mrs. Demings. Okay. And for rural and islands?
    Secretary Ross. Same.
    Mrs. Demings. Okay, same. Okay. Thank you very much for 
that. On the census website it says, and I quote, ``We promise 
that we will use every technology, statistical methodology, and 
physical security procedure at our disposal to protect your 
information,'' unquote. Could you talk, Secretary Ross, a 
little bit about how the adequate or inadequate funding might 
affect that promise?
    Secretary Ross. Well, we believe that the funding we have 
requested will provide us the resources we need for that 
purpose.
    Mrs. Demings. And if you do not get the funding that you 
requested, are you still able to fulfill the promise that is on 
your website?
    Secretary Ross. Well, we will do the best we can with the 
resources we get, but we think that the optimal amount for the 
proper job is the amount we've requested.
    Mrs. Demings. Thank you, Secretary Ross.
    Mr. Chairman, I yield back. Thank you.
    Chairman Gowdy. Yes, ma'am. The gentlelady from Florida 
yields back.
    The gentleman from Iowa is recognized.
    Mr. Blum. Thank you, Chairman Gowdy.
    Secretary Ross, thank you for being here today. Good to see 
you again, my friend.
    Fifteen-point-six billion I guess is the latest estimate.
    Secretary Ross. Yes.
    Mr. Blum. In Iowa that is a lot of money.
    Secretary Ross. It is to me too, sir.
    Mr. Blum. A hundred and twenty-five million households I 
think there are, so the math, if I am correct, is about $125 
per household ----
    Secretary Ross. That's about right.
    Mr. Blum.--to do what we want to do. Does that strike you 
as a large number per household?
    Secretary Ross. It's a large number ----
    Mr. Blum. What are your feelings about that?
    Secretary Ross.--and it's an even larger number when you 
consider that the vast bulk of that is spent on getting the 
last few million in because the ones who respond to the initial 
mailed document or respond over internet, the cost of those is 
very small. It's the more-difficult-to-enumerate people that 
are really the most expensive to get to. The last few million 
people are going to cost infinitely more than the first few 
million ----
    Mr. Blum. I'm ----
    Secretary Ross.--and that's why the response rate is so 
critical.
    Mr. Blum. You are a private sector guy. I am a private 
sector businessperson as well. Can you just in 60 seconds let 
me know how much--are we utilizing the private sector? I am 
thinking of, for example, Google probably didn't spend $15 
billion to map the entire United States visually. Are we 
utilizing the technology and the resources available in the 
private sector to the extent possible?
    Secretary Ross. I believe so. I believe so.
    Mr. Blum. Can you expand on that just briefly or--
especially the technology piece of this.
    Secretary Ross. Right. Well, where the Google-type 
technology is helpful is in locating physical structures. It 
doesn't really go within the structure to the individual 
person, so our task is first to identify the physical 
structures that have residents in them, whatever the nature, 
whatever the formality or informality of the living 
arrangements, but then the real test is to get inside them and 
find out exactly how many people are there. So that's where the 
self-responses are very helpful.
    And we're providing for internet self-response. We're 
providing call centers to make it easy. Everybody's going to be 
getting mailings. And then finally, as a last resort, we'll use 
the primitive thing of a guy knocking on the door.
    Mr. Blum. And speaking of--I am glad you said a guy 
knocking on the door. Back in my district in Iowa I have 
delivered the mail with postal carriers. One of them brought an 
idea to me. They said, ``Why is it when we do the census, why 
don't they use us more?'' He said, ``For example, I know 
exactly on my route how many people live in each house. I know 
their names.'' He said, ``I know a lot about them.'' He said, 
``Why don't they utilize us?''
    Secretary Ross. We do.
    Mr. Blum. I thought it was a great question.
    Secretary Ross. Oh, we do.
    Mr. Blum. I would like to pose that to you.
    Secretary Ross. Oh, we do. Our fundamental database is the 
postal system, no question. But because people move, people 
die, people--all kinds of things happen. Something like 12 
percent of the population relocates during the course of a 
calendar year. And within the more difficult-to-enumerate 
portion, there's probably even more mobility than there is, 
say, in a single-family home in a little town. So it's very, 
very complicated, but we do begin with the postal system 
records for sure.
    Mr. Blum. So you use their database. Can we also utilize 
the man knocking on the door?
    Secretary Ross. The man knocking on the door ----
    Mr. Blum. Can we utilize the postal carrier for that?
    Secretary Ross. The man knocking on the door is the last 
resort, only when all the more efficient mechanisms have 
already been used.
    Mr. Blum. I got looking at the $15.6 billion and I thought, 
Mr. Secretary, if you and I formed a company, I am guessing we 
could do for $8 billion, save the government $7 billion, and 
you and I would put a few dollars in our pocket I am guessing. 
Is there any truth to that?
    Secretary Ross. Well, I don't know. We are where we are, 
and we do think under the circumstances we really need the 
$15.6 billion. Thank you very much. Thanks for being here, Mr. 
Secretary.
    I yield back my time, Mr. Chairman.
    Chairman Gowdy. The gentleman from Iowa yields back.
    The gentleman from Pennsylvania is recognized.
    Mr. Cartwright. Thank you, Mr. Chairman. And, Chairman 
Gowdy, I want to express my appreciation for this hearing.
    People don't think about the census that much, but it is 
such an important thing, not just because it is 
constitutionally mandated that we need to get it right. We need 
to get it right so our American Federal Government can work 
better for everybody. We need an accurate census. We need to 
know where the people are, we need to know where the jobs are, 
we need to know where the poverty is, we need to know how the 
economy is changing, we need to know what the government needs 
to do and maybe needs to stop doing and where these things need 
to happen. So, so much of policy depends on an accurate census. 
We need to get it right.
    Secretary Ross, it is good to see you again. I saw you in 
May when you came and testified before the House Appropriations 
Committee. And I want to touch on some areas that we do have 
concerns about. I think all of us in this room share the 
concern we need to get this census right. We want to learn from 
past mistakes. We don't want to be--we don't want to have rose-
colored glasses and really unjustified hopes. We need to be 
very practical and pragmatic about this, and I think you are 
that kind of person, Secretary Ross, so I want to touch on a 
few things.
    First, warning signs of trouble, I mean, May 3 was when 
Census Director Thompson appeared before my subcommittee on 
appropriations, and we asked him hard questions, much like the 
ones you are getting here today, Secretary Ross. And he 
resigned the next week. That is a warning sign of trouble to 
me. And he hasn't been replaced.
    First question, are there immediate plans to replace the 
census director?
    Secretary Ross. Yes. We had actually come up with a nominee 
and then that fell away during the vetting process, so we're 
actively trying to recruit. But I have very good confidence in 
the team that we have assembled right now, namely, the two 
people who collectively have some 30 years each of experience 
are there, they're functioning every day. And Karen Dunn Kelley 
now is providing very direct oversight of them. Plus, I'm being 
very personally involved, and we have the whole series of 
oversight meetings, meetings with the contractors. We're all 
over this thing as best we can be.
    So it's not to say that we don't want to have a permanent 
approved census director; we do and we will. It's not an easy 
task to fill because you need someone who has subject matter 
command and management experience to deal with an enormously 
challenging task of hiring a half-million temporary workers, 
getting them out there, getting them productive, and getting 
this big technological change introduced.
    Mr. Cartwright. Well, you have a lot of other things that 
demand your attention, Secretary Ross, so I urge you to devote 
the maximum effort into finding that person to be a strong, 
active, knowledgeable census director, and let's get that done 
quickly.
    Secretary Ross. We're trying our very best.
    Mr. Cartwright. Now, we need to get this census right, and 
one of the problems, one of the red flags is we know there are 
underreported communities, and a number of them have been 
mentioned by my colleagues on both sides of the aisle today, 
but one of them I notice is the LGBT community. They are 
historically underreported. We know that they face higher 
levels of poverty, particularly older LGBT people, that LGBT 
young people are more likely to be homeless, making it all the 
more likely that they will be not counted. And, in fact, the 
Census Bureau itself has recognized that the LGBT community is 
a hard-to-count population, yet the Bureau has declined to put 
questions about sexual orientation and gender identity into the 
census.
    Secretary, did you determine that there was no Federal need 
for this information?
    Secretary Ross. No, there were hearings held about it. 
There were requests put in, and it was concluded that that 
particular set of questions did not meet the requirements for 
being put in. One of the problems with adding questions is it 
reduces response rates. It may seem counterintuitive, but the 
more things you ask in those forms, the less likely you are to 
get them in.
    Mr. Cartwright. Well, I ----
    Secretary Ross. So there's a balancing act between more 
information and fewer responses.
    Mr. Cartwright. Secretary Ross, my time is up, but I want 
to associate myself with the hard questioning you got from my 
colleague, Congressman Hice of Georgia. I urge you to devote a 
great deal of attention to the online, the self-reporting, 
increasing public confidence in the cybersecurity of the system 
because, as you have said yourself today, that is the cheapest 
way we get this job done with the self-reporting, with the 
online work, and I urge you to devote a lot of attention to 
increasing the public's trust in the online system and giving 
them good reason to have trust in that system.
    And with that, I yield back, Mr. Chairman.
    Secretary Ross. We share your concern.
    Mr. Cartwright. Thank you.
    Chairman Gowdy. The gentleman from Pennsylvania yields 
back.
    The gentleman from California is recognized. Sorry about 
that, the gentleman from Texas, I apologize. And I do want to 
say this in Will's defense. He was up several times ago and he 
let others go, so, Will, I apologize. You're up, and then the 
gentleman from California.
    Mr. Hurd. Thank you, Chairman.
    And, Secretary Ross, it is great to have you here, and it 
is great to know that there is C-suite attention to this 
important issue. You have a very important portfolio, but it is 
great that you are involved in providing leadership for this.
    And I know you have inherited I think the technical term is 
a mess, and I recognize and I appreciate your comments about 
how to prevent the next census from being in a similar 
position, so I appreciate that.
    And when some of your predecessors were here last time, 
there was a debate about whether the Census Bureau should 
develop a widget that uses the telecommunications backbone that 
the enumerator can put data in, and the question was that 
widget already exists; it is called a smartphone. And I am glad 
to know that the Census Bureau decided to use I believe 
smartphones.
    And my question around that is have we discussed or have 
plans, have you and the CIO for the Census Bureau had some 
conversations around the security of whatever device is going 
to be used by the enumerators?
    Secretary Ross. Yes, we've had consultation not only within 
the Department but with Homeland security, with FBI, with the 
intelligence community, with the overall CIOs in the government 
and in Commerce. So we're building in the best firewalls and 
routers that we possibly can.
    But having said that, there's probably some 13-year-old kid 
in a garage somewhere trying to figure out how to penetrate it, 
so in today's world, you do your best, but you can't be 100 
percent sure unfortunately.
    Mr. Hurd. You have to begin with the assumption of breach. 
I did this for a living. I never not got in, but the fact that 
there is, again, focus from your office on the security of the 
systems--and I know that there is 43 systems that have to be 
delivered for end-to-end testing in 2018 and only four of those 
have been delivered. I know there has been some conversations 
on that. And, you know, my concern is the Bureau is going to 
have to get the authorizations to operate the ATOs for each one 
of these systems, and I know some of these--a section of these 
43 systems already have ATOs, but they're going to need to get 
new ones because the system is evolving. And I am curious in 
the strategy that you and your IT team have discussed on 
ensuring that we have those ATOs in time to protect those 
personally identifiable information, especially on those 33 
systems that do have PII.
    Secretary Ross. Well, there are actually more than 50 
systems that will be involved. And their uses are to update and 
maintain the address list to enable people to respond via the 
internet, to identify the households that have not responded in 
order to send interviewers to them, to manage the work of the 
interviewers, and to recruit and pay the field workforce. Those 
are just a few examples of the kinds of systems.
    Systems also capture, process, and tabulate all of the data 
collected on the people living in the United States. We're 
monitoring the progress of all of these systems, and each one 
is at a different stage of completion as we sit here.
    Mr. Hurd. And so what is your strategy to ensure that these 
systems are delivered and they have the ATOs necessary to get 
this done?
    Secretary Ross. Well, we're trying to apply enough pressure 
on the contractors and enough surveillance of them to deal with 
the glitches that inevitably will come up. There will be 
unexpected problems in each area, and that's why we have 
allowed the 10 percent contingency because most of these 
problems that come up can be solved. It's a question of how 
many people it takes and at what cost.
    Mr. Hurd. And, Mr. Secretary, I would like to offer that we 
would love to talk to those folks, those contractors that may 
not be delivering on time and have them join you at this table 
to ensure that this census is done properly.
    And my last question in my remaining two seconds, why did 
the head of the census, the former Director Thompson leave the 
Bureau?
    Secretary Ross. Well, I think he has issued a public 
statement about why he left. I did not know him very well, so I 
can't really judge if--what his motivations were. He has found 
other employment in the statistical community, and he actually 
held a press conference at the National Press Club a week or 
two after he resigned and explained what his motivations were.
    Mr. Hurd. Good. Copy. Thank you.
    And, Mr. Chairman, I yield back the time I do not have.
    Chairman Gowdy. The gentleman from Texas yields back, and I 
apologize again for not counting the gentleman from Texas, 
particularly embarrassing at a census hearing. So I apologize 
for that.
    The gentleman from California is recognized.
    Mr. Issa. Thank you, Mr. Chairman. I don't mind you calling 
him the gentleman from California. We have had so many 
Californians moved to Texas.
    Chairman Gowdy. I should have specified the other gentleman 
from California, Mr. Gomez.
    Mr. Gomez. Thank you. Mr. Secretary, thank you so much for 
sticking around. I am over here. I am the newest member of the 
House and of this committee, so you sticking around is very 
helpful to me because I never get to ask these kind of 
questions.
    First, I am a big fan of the census. It is a subject I 
studied in graduate school at the Kennedy School of Government, 
took classes on it. It is very important just to the entire 
country and how we operate. One of the issues is definitely the 
undercount when it comes to certain communities. African 
Americans were undercounted by 2.1 percent in 2010 and 
Hispanics by 1.5 percent. I am fearful that that will go up in 
this next census because of the immigration policies, 
especially the interior enforcement policies of this new 
administration.
    The acting ICE Director Homan issued a statement last week 
in response to a bill that was passed in California, S.B. 54, 
the California Values Act, that they would have no choice but 
to conduct large-scale raids and enforcement within 
neighborhoods and workplaces. What kind of--you know, and you 
mentioned--this also kind of made me think about--you mentioned 
the response rate would be 55 percent. Has I guess the new 
interior enforcement policies of the administration been taken 
into account when determining the response rate, the 
undercount, and just trying to figure out what kind of impact 
they will have on these communities.
    Secretary Ross. Well, the--there are quite a lot of 
questions in what you've said, but the response rate in 2010 
had been 63.5 percent. The original estimate that the census 
folks had used was 60.5 percent this time. We took that down to 
55 percent for the very reasons that you are describing. Is 
that exactly the right number? Who knows, but it certainly is a 
lot safer number than 60.5. So our starting point is a much 
more conservative one, and as a result of that, we've allocated 
more money to the difficult-to-enumerate part.
    Second, we have increased the communications budget from 
the $350 million that was spent in 2010 to $500 million, and 
even if you look at 2010 on a 2020 inflation-adjusted basis, 
that would only bring it to $420 million, so it's almost a 20 
percent increase over the inflation-adjusted basis. So we're 
increasing the communication is one thing. Second, were 
spending $248 million on these partnership arrangements. That's 
over and above the $500 million that we're spending on 
communications. So if you add that all up, that's $750 billion 
essentially devoted to outreach, and most of that, when you 
really think about it, is in fact devoted to the last few 
million, the last few percentage points to try to minimize the 
danger of undercounting because the ones who respond 
immediately to the mailings, the ones who respond immediately 
to a phone call, those don't cost too much to get. It's the 
last few that take up most of the money.
    We're making use of 10 different languages. We're doing all 
kinds of things that were not done before by way of training in 
order to improve the efficiency of the process.
    Mr. Gomez. Mr. Secretary, thank you. I am glad that is 
being taken into account, and I guess that is why you have a 
lower number. That is why also the partnerships are so 
important. I noticed that you mentioned that only 40 
partnerships specialists have been currently budgeted. In 2000 
there was 590 if that is correct. What is your goal on the 
number of partnerships for the 2020 census?
    Secretary Ross. Well, our goal is--our target is to get to 
a number on the order of magnitude of 800.
    Mr. Gomez. Okay. Thank you. The reason why it is so 
important is that there is a historic undercount in these 
communities. We need to make sure they are accurately counted. 
You have a tough, tough job. I appreciate that there has been 
thought about the political environment and the immigration 
enforcement. What I have seen in some of my-- even in talking 
to community hospitals and community clinics, you don't think 
there is a correlation, but some community clinics have seen 
increases in the no-show rate up to 19 percent. That is a big 
jump. So if they are not showing up to get physical and health 
checkups, you are going to see a lower response rate and lower 
counts in some of these communities.
    So thank you so much. I appreciate having the time to ask 
the questions, and I yield back.
    Chairman Gowdy. The gentleman California yields back.
    The gentleman from California, Mr. Issa, is recognized.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Secretary, you know, around here we always say that all 
questions have been asked but not by all of us here. Seeing as 
I appear as though I am the last up to bat, I will try not to 
repeat any more than necessary.
    Earlier on, Mr. Duncan apparently asked about the American 
Community Survey. I just want to plant something. I have the 
same concerns he has of intrusiveness and so on, but I also 
have a concern of inaccuracy. It is anecdotal, but I have been 
living in the same house when I am here for years. The last 
census and this census, for whatever reason, they threaten my 
very livelihood if I don't answer questions about a place I 
don't live. And so the absence of a targeting pursuant to the 
survey that would reasonably determine whether or not there is 
a resident. In other words, the place that I reside in when I 
am here, except for a corporate name on the title, there is no 
way to trace it back to anybody.
    It is a house that receives no mail, has no bank accounts, 
absolutely nothing to it, and yet, for whatever reason, it is 
the target of the Community Survey for which I ignore to be 
honest. I don't really ignore it; I take it into my staff and 
they then send it to the Census Bureau to say this is silly.
    So the one thing that I would ask is that you, going 
forward, ask the question of to get accuracy, do you have to be 
random and without looking, or in this modern age can you use 
tools to determine the high likelihood of places that should be 
surveyed? Just a thought.
    Now, here is the bigger thought. This is going to be my 
third census, and as I came in as the first census--and the 
gentleman from California has departed talked about we 
inherited it from the Clinton administration, and it did have 
some differences. In 2010 under the Bush era and then Obama, he 
really inherited it from President Bush, who had done most of 
the preparatory work. What I will tell you is I saw very little 
difference in the fact that the Census Bureau always seemed 
surprised that 10 years had passed. They always seem a little 
shocked that they didn't make it, and then they start talk 
about funding for something they had 10 years.
    So here is a question from yours and my years in business. 
Decades ago when we were younger businessmen, companies closed 
for as much as a week to do their annual shutdown and 
inventories. Everybody except those counting went home. And 
that once-a-year inventory was the way it was. That was before 
a great many advances both in statistical accuracy and in the 
ability to continuously monitor inventories. Today, no sensible 
company ever has to shut down because they are continuously 
making sure their inventories are accurate.
    The Constitution does enumerate a once-every-10-year 
requirement, but the Constitution could be changed if 
necessary. If we were to ask the question wouldn't America be 
better off with continuous accurate counting, a system in which 
the Census Bureau, in its many activities, including the 
aforementioned American Community Survey, would be constantly 
doing its job. It would not be trying to do something once 
every 10 years, which seems to be Herculean simply because they 
only do it once every 10 years.
    So I would ask you to draw on the evolutions that you have 
seen over decades in how we look at accounting for things and 
ask the question, on your watch, shouldn't we begin the 
process, even if it requires congressional action, to go to a 
continuous-counting system to make it constitutional but to 
make it much more accurate, which today, with tools both in 
counting and, to be honest, with the modern computer accuracy 
of what we know and where we know it, couldn't we do the 
American people a better service?
    Secretary Ross. Well, I must confess with trying to get my 
arms around the existing process, I've not given much thought 
to changing the whole thing. There are probably pluses and 
minuses to the idea of the continual survey. At some point I 
will try to give some thought to it, but as you correctly point 
out, that would take a constitutional amendment, and I would 
think that's going to be a big challenge in and of itself to 
make such a radical change in something so fundamental to the 
allocation of seats and allocation of monies.
    Mr. Issa. I would agree with you that if, in, fact the 
certification once every 10 years that the count was as 
accurate or more accurate than it would be by the current 
system would require some action. The question is when the 
Census Bureau certifies what our population is and where it is 
in 2020, they will be doing so with the best efforts they can 
have, most of which will be done based on a once-every-10-year 
count.
    What I would say to you, Mr. Secretary, is if we look at 
what we should do for our progeny in the decades and centuries 
to come, if we begin now with some sort of an effective study--
and of course, this would be based on the people behind you for 
the beginning, but then a commission that would in fact check 
out the feasibility, run the questions, create the question of 
could we have a higher confidence, and could we have it every 
day of every month of every year rather than the estimates 
today, which we rely on the estimates during the interim 
period. Why are they not as accurate or more accurate than the 
once every 10 years?
    So I plant this for you because your real legacy can only 
be affected slightly in what you do from the time you take over 
to the time we have our census. You have a short period of 
time, and most of the time has expired. But for 12 years from 
now plus, there is a question of whether or not we could 
improve the system just as any of the portfolio of companies 
that you are familiar with would never close for a week once a 
year and think that that is the best way to count inventory.
    Secretary Ross. No, I certainly agree with your analogy 
about the private sector. That is 100 percent accurate. I do 
think that would be a very large undertaking to try to figure 
out the pluses and minuses of a continual thing, so I really do 
think that would require additional congressional 
appropriation. I don't want to divert any of the census people 
from the task at hand because this is a heavy enough lift the 
way it is. So to take some of them off that job and think about 
a possible alternative I really don't think is in the public's 
interest. So that would have to be a separate appropriation.
    Mr. Issa. Thank you, Mr. Secretary, and thank you, Mr. 
Chairman.
    Chairman Gowdy. Yes, sir. Thank you, Mr. Secretary. We have 
got one more member to go. I am going to go last.
    Secretary Ross. Oh.
    Chairman Gowdy. I think one thing you and I both heard 
today, the census is constitutionally significant. It is 
incredibly important for purposes of our democratic republic, 
counting people, apportionment, even the apportionment of goods 
and services. And what I learned from you last week is this 
causal link between cost and compliance. The compliance numbers 
are going down, the cost is going up.
    I don't remember a lot from my childhood because it was a 
long time ago. I do remember the seriousness with which my 
parents took the census. It was almost a form of public 
service, maybe not to the level of jury service, but it was 
important. So if you accept the belief that most of our fellow 
citizens would like to help, particularly in an area that is 
constitutionally significant and important and kind fundamental 
to our form of government, what are the impediments to the 
compliance rate? How do we reverse the trend of our fellow 
citizens not voluntarily complying?
    Secretary Ross. Well, I can only speculate, but I will give 
you a couple of thoughts on it. I think the fabric of the 
relationship between the public and the government has been 
deteriorating. I think there is less public confidence in 
government than there has been for a long time, and I think 
that is one of the problems.
    I think a second problem is there is so much input that 
comes into everyone, whether it is over social media, whether 
it's through the conventional media, from whatever source. I 
think everybody is overdosed on information flow, junk mail, 
the whole thing. So I think information clutter is a separate 
problem, and it's one of the problems even with the call 
center. A lot of people don't like to get incoming calls from 
strangers for whatever reason.
    And the do-not-call lists have proven quite ineffective. I 
find even though I have only been in government a short while I 
got these robocalls on my official government cell phone. I 
think if we got--if we want to get response rates improved, we 
have to get rid of a lot of the intrusions that people find in 
the normal course. I was astonished to get--I would say I 
probably get two or three junk calls a day on my official 
government cell phone.
    Chairman Gowdy. Well, we might ought to switch that number, 
and I am happy to help you there if you want to get a different 
number. Maybe it won't help. I think you put your finger on 
something, the disconnect between the citizenry and the 
government and the lack of trust, which leads to the next two 
areas. I don't think people mind answering questions where they 
see the relevance. How many folks live in your household, that 
is directly relevant to apportionment and therefore 
redistricting and the provision of goods and services.
    I made a note you said in response to one of my colleagues 
that the more questions you ask, the lower the compliance rate 
is, and you ----
    Secretary Ross. Absolutely.
    Chairman Gowdy.--used the word counterintuitive, and in 
fact I think it is not counterintuitive. It makes perfect 
sense. The longer something takes me, the less likely I am to 
do it. The more intrusive I view it, the less likely I am to 
do.
    Secretary Ross. Right.
    Chairman Gowdy. So I would--there are two things. I don't 
want to dwell on the Community Survey because it has been 
touched upon by a number of my colleagues. It is not lost on me 
that American citizens can reject a jury trial, they can reject 
a lawyer, they can refuse to talk to the government, they can 
refuse to talk to law enforcement, they can refuse to vote. It 
is surprising to me to see that little line at the bottom of 
the Community Survey that you can be punished for failing to 
tell the government how many bathrooms you have and what kind 
of fixtures you have.
    So given that you and I agree that the disconnect between 
the citizenry and the government is one of the reasons we have 
a low compliance rate, I would encourage you to be very 
judicious and thoughtful about what questions government does 
ask.
    And the other thing I would--two other points and then we 
are done. Cost matters. It matters, period, new paragraph. I 
think in lots of facets of life we are willing to pay for 
quality. We do it with automobiles, we do it with sporting 
events. I think if you were somehow able to convince our fellow 
citizens that they are going to get an A-plus product--you are 
not happy about the extra costs, but if they can swallow that, 
they will get an A-plus product. I think it is when you get the 
higher cost and a substandard product that also actually feeds 
the disconnect.
    So I don't know you well. You were kind enough to come over 
last week. I know nothing about your background, don't even 
know anything about your politics. I will tell you this. You 
come across as an authentic person. You come across as someone 
that our fellow citizens would believe on an issue like this. I 
would encourage you to pair up with someone who has a different 
political ideology. Whatever yours is, find somebody on the 
other side, and communicate to our fellow citizens, look, we 
get the disconnect. We are not trying to change that.
    It would be really helpful to all of us as Americans, not 
Republicans, not Democrats, not Southerners. It would be 
helpful as Americans if we got that compliance number up. It is 
going to save money. It is also more accurate. So I am not 
talking about an ad campaign where you are on an ad at the 
Super Bowl, although I am sure you would be great. Just use the 
bully pulpit of being a Cabinet-level official to kind of 
reassure our fellow citizens that you want to do it the right 
way, and you want it to be accurate, and you could use their 
help.
    Secretary Ross. Well, I think that is very good advice, and 
I will try very hard to use whatever bully pulpit comes with 
Commerce to try to achieve that.
    Chairman Gowdy. Well, on behalf of everyone, I want to 
thank you not just for today but also the briefing you gave us 
yesterday. We have another panel. I know that you have other 
things to do, so we are going to recess and then allow the 
second panel to come forward. And with that, thanks on behalf 
of all of us for your time this morning.
    Secretary Ross. Thank you, Mr. Chairman.
    Chairman Gowdy. Yes, sir.
    [Recess.]
    Chairman Gowdy. I want to welcome our second panel. I want 
to thank you for your patience. It was a little longer morning, 
but we made it, so thank you. I will introduce you, recognize 
you for your five-minute openings. And Mr. Cummings is coming, 
and he graciously told me to go ahead and start.
    From my left to right, Mr. Robert Goldenkoff, director of 
strategic issues, census issues at the Government 
Accountability Office; Mr. David Powner, director of 
information technology management issues at the Government 
Accountability Office; Ms. Carol Rice, assistant inspector 
general for economic and statistical program assessment at the 
Department of Commerce Office of Inspector General; and Ms. 
Vanita Gupta, president and CEO of the Leadership Conference on 
Civil and Human Rights.
    I think all of you have testified before. You know what the 
little coloring system means. Green means go, yellow means run 
through the light as quick--yellow is speed up, get through it 
as quick as you can, and red, you are going to get stopped. I 
won't stop you right at five minutes because it is really 
important, but your opening statement is part of the record.
    So with that, Mr. Goldenkoff.

                  WITNESS STATEMENTS PANEL II:

                 STATEMENT OF ROBERT GOLDENKOFF

    Mr. Goldenkoff. Chairman Gowdy, Ranking Member Cummings, 
and members of the committee, GAO is pleased to be here today 
to discuss the Census Bureau's readiness for the 2020 
headcount. As you know, in recent years we have identified a 
number of operational, management, and other challenges that 
raise serious concerns about the Bureau's ability to conduct a 
cost-effective enumeration, and in February 2017, we added the 
2020 census to our list of high-risk government programs.
    My remarks today will focus on two such challenges: 
implementing design innovations aimed at controlling costs, and 
developing reliable cost estimates that better account for 
risks and inform annual budget requests. My colleague David 
Powner will then discuss the challenges the Bureau faces in 
implementing and securing critical IT systems.
    The bottom line is that, while the Bureau has made 
considerable progress in redesigning the census, significant 
risks and uncertainties remain. Moreover, as Secretary Ross 
mentioned, the decennial is now projected to cost $15.6 
billion, more than $3 billion above the Bureau's original 
estimate.
    Going forward, continued management, attention, and 
congressional oversight will be needed in the short time 
remaining until census day to ensure that key components and IT 
systems are fully tested and will function as required, that 
preparations stay on schedule, that cost estimates follow 
leading practices, and any further cost growth is capped.
    To help control costs while maintaining accuracy, the 
Bureau will use new procedures and technology for 2020, 
including greater use of automated data collection methods, 
administrative records in place of--collected by enumerators, 
verifying addresses using aerial imagery and other in-office 
procedures, and allowing households the option of responding to 
the census via the internet. While these new methods may 
control costs, they also introduce new risks in part because 
they have not been used to a great extent and prior decennials, 
if at all.
    To help ensure that key systems and procedures will 
function as planned, the Bureau has held a series of tests 
since 2012 at various sites across the country. The Bureau is 
currently conducting the 2018 end-to-end test in Pierce County, 
Washington; Providence County, Rhode Island; and the Bluefield-
Beckley-Oak Hill areas of West Virginia. The test began in 
August 2017 and is scheduled to run through April of 2019.
    Essentially, a dress rehearsal for the actual enumeration, 
the 2018 test is the Bureau's final opportunity to demonstrate 
that essential census-taking activities will perform under 
operational conditions. However, in May 2017, because of 
budgetary constraints, the Bureau de-scoped the test and only 
plans to conduct a complete test in Rhode Island. The 
Washington and West Virginia sites will only assess address 
canvassing.
    This is not the first time the Bureau has curtailed its 
testing. Citing funding uncertainties, the Bureau canceled 
field components of a 2017 test. Importantly, without 
sufficient testing across a range of geographic locations, 
housing types, and demographic groups, operational problems can 
go undiscovered, and the opportunity to refine procedures and 
systems will be lost.
    Another risk factor is the quality of the Bureau's estimate 
of the cost of the 2020 census, which does not conform to best 
practices. Quality cost estimates can help an agency manage 
large complex activities like the decennial, as well as help 
Congress make funding decisions and provide sufficient 
oversight. However, the Bureau's 2015 cost estimate only 
partially met the characteristics of two best practices, that 
of comprehensiveness and accuracy, and minimally met the other 
two best practices well-documented and credible.
    Additionally, the Bureau has not yet publicly released an 
update to its 2015 cost estimate, yes several events since 
then, including changes in system requirements and procedures, 
indicate that the decennial lifecycle cost will be 
substantially higher than the original estimate of $12.5 
billion.
    The Bureau's preparations for 2020 have been further 
complicated by ongoing vacancies in the positions of census 
director and deputy director. Although acting leadership has 
since been named, turnover in the Bureau's top ranks makes it 
difficult to ensure accountability and continuity, as well as 
to mitigate risks and control costs over the long term.
    This concludes my prepared remarks. I will now turn it over 
to my colleague Dave Powner, who will discuss the risks facing 
the Census Bureau's IT efforts.
    [Prepared statement of Mr. Goldenkoff follows:]
    [GRAPHIC] [TIFF OMITTED] T0245.008
    
    [GRAPHIC] [TIFF OMITTED] T0245.009
    
    [GRAPHIC] [TIFF OMITTED] T0245.010
    
    [GRAPHIC] [TIFF OMITTED] T0245.011
    
    [GRAPHIC] [TIFF OMITTED] T0245.012
    
    [GRAPHIC] [TIFF OMITTED] T0245.013
    
    [GRAPHIC] [TIFF OMITTED] T0245.014
    
    [GRAPHIC] [TIFF OMITTED] T0245.015
    
    [GRAPHIC] [TIFF OMITTED] T0245.016
    
    [GRAPHIC] [TIFF OMITTED] T0245.017
    
    [GRAPHIC] [TIFF OMITTED] T0245.018
    
    [GRAPHIC] [TIFF OMITTED] T0245.019
    
    [GRAPHIC] [TIFF OMITTED] T0245.020
    
    [GRAPHIC] [TIFF OMITTED] T0245.021
    
    [GRAPHIC] [TIFF OMITTED] T0245.022
    
    [GRAPHIC] [TIFF OMITTED] T0245.023
    
    [GRAPHIC] [TIFF OMITTED] T0245.024
    
    [GRAPHIC] [TIFF OMITTED] T0245.025
    
    [GRAPHIC] [TIFF OMITTED] T0245.026
    
    [GRAPHIC] [TIFF OMITTED] T0245.027
    
    [GRAPHIC] [TIFF OMITTED] T0245.028
    
    [GRAPHIC] [TIFF OMITTED] T0245.029
    
    [GRAPHIC] [TIFF OMITTED] T0245.030
    
    [GRAPHIC] [TIFF OMITTED] T0245.031
    
    [GRAPHIC] [TIFF OMITTED] T0245.032
    
    [GRAPHIC] [TIFF OMITTED] T0245.033
    
    [GRAPHIC] [TIFF OMITTED] T0245.034
    
    [GRAPHIC] [TIFF OMITTED] T0245.035
    
    [GRAPHIC] [TIFF OMITTED] T0245.036
    
    [GRAPHIC] [TIFF OMITTED] T0245.037
    
    [GRAPHIC] [TIFF OMITTED] T0245.038
    
    [GRAPHIC] [TIFF OMITTED] T0245.039
    
    [GRAPHIC] [TIFF OMITTED] T0245.040
    
    [GRAPHIC] [TIFF OMITTED] T0245.041
    
    [GRAPHIC] [TIFF OMITTED] T0245.042
    
    [GRAPHIC] [TIFF OMITTED] T0245.043
    
    [GRAPHIC] [TIFF OMITTED] T0245.044
    
    [GRAPHIC] [TIFF OMITTED] T0245.045
    
    [GRAPHIC] [TIFF OMITTED] T0245.046
    
    [GRAPHIC] [TIFF OMITTED] T0245.047
    
    [GRAPHIC] [TIFF OMITTED] T0245.048
    
                  STATEMENT OF DAVID A. POWNER

    Mr. Powner. Chairman Gowdy, thank you for inviting us to 
testify on the Bureau's plans to deliver and secure key 
technologies for the 2020 census. These technologies, if 
appropriately deployed, can improve our nation's response rates 
and secure citizens' data. This technology has not been 
effectively plans or managed, and much work remains to deliver 
it.
    Three areas require congressional attention associated with 
the technologies. They are schedule, security, and cost growth. 
I will expand on each of these starting with schedule.
    The Bureau needs to deliver 43 systems for the 2020 
decennial. Some are new systems and infrastructure, while 
others are changes to existing systems. Clearly, the internet 
response capability, mobile devices, and the centralized 
operations component are critical systems. These systems need 
to be ready for the end-to-end test that started in August to 
ensure that they are integrated appropriately.
    The Bureau has missed many milestones and currently only 
four of the 43 have completed development and testing. Of the 
remaining 39, 21 have delivered some functionality while 
nothing has been delivered for the remaining 18 for this test. 
Many of these systems have key delivery dates in early 2018 so 
that they can be included in the end-to-end test. These systems 
include the internet response, the mobile device enumeration 
application, and the fraud detection system. The mobile device 
application has been running behind schedule for some time, and 
we have serious concerns about the timely delivery of the fraud 
detection system.
    I'm not sure I agree with the Secretary's comment this 
morning that the systems are on schedule. The appendix in our 
written statement lays out each of these 43 systems' delivery 
dates, and we'll be tracking each of these closely for this 
committee. We are especially concerned that schedule pressure 
and late deliveries will result in compressed and inadequate 
testing.
    Turning to security, the Bureau needs to continue its 
diligence in this area since it has been the target of recent 
cyber attacks. The Bureau needs to minimize the threat of 
phishing, secure about 400,000 mobile devices, ensure security 
of cloud services, and properly configure all systems. To 
ensure that all systems are as secure as possible, the Bureau 
needs to assess security controls, fix known deficiencies, and 
have the proper signoff by both the chief information officer 
and the head of the decennial office to ensure that each system 
is authorized to operate. This process is critical since 33 of 
the 43 systems contain personally identifiable information.
    The Bureau has such a process, but we have concerns about 
whether there will be ample time to complete all the security 
work given the late delivery dates of the system and whether 
shortcuts will be taken due to pressure to authorize 
prematurely. Right now, all 43 systems need to be authorized--
reauthorized or authorized. This is a point that I think it is 
fair to say Congressman Hurd hammered home quite well.
    Finally, we have concerns about cost growth associated with 
these technologies and have had these concerns for some time. 
The CEDCaP program, as mentioned by Secretary Ross in his 
testimony, has overrun about $400 million and is now costing 
about $1 billion. Baseline IT costs seem to be changing 
constantly. The latest from the Bureau is that IT costs were 
about $3.4 billion, but this total did not include about $1.4 
billion, bringing the total cost closer to $5 billion, not $3.5 
billion.
    As mentioned by Secretary Ross, the new lifecycle estimate 
includes this additional $1.5 billion that was previously 
unaccounted for. We will be tracking these costs closely 
because, given the remaining work and past mismanagement, we 
remain concerned about cost growth in this area even with 
built-in contingencies.
    In conclusion, schedule security and cost growth are major 
concerns that we will continue to monitor for the Congress.
    Mr. Chairman, thank you for holding this hearing and your 
oversight of the 2020 decennial.
    Chairman Gowdy. Ms. Rice?

                   STATEMENT OF CAROL N. RICE

    Ms. Rice. Good afternoon, Chairman Gowdy, Ranking Member 
Cummings, and members of the committee. I appreciate the 
opportunity to testify about the Bureau's 2020 census lifecycle 
cost estimate.
    We all support the Bureau's ultimate goal: to produce a 
high-quality census while minimizing cost. But over the last 
several years, we've produced a number of reports that have 
found weaknesses in how the Bureau allocates costs, collects 
cost data, and estimates costs for the 2020 census. My 
testimony today provides additional details about these 
limitations.
    First, we found that the Bureau's 2020 census lifecycle 
cost estimate cannot be validated. Second, much of our work 
throughout this decade reveals cost overruns, unaccounted for 
costs, and decreased cost avoidance.
    To the first point, the Bureau's cost estimate is not 
auditable. It takes into account more than 100 inputs, but when 
we tried to verify their accuracy during the 2014 census test, 
there was no supporting documentation. Additionally, we 
evaluated the interactive review portion of the in-office 
address canvassing operation and found that the estimate was 
derived from undocumented verbal conversations. This lack of 
documentation prevented us from auditing the estimated cost 
avoidance the Bureau reported to stakeholders.
    Similarly, we identified three instances where the Bureau's 
census tests failed to capture cost data that could validate 
and update the cost estimate. Both the 2014 census test and the 
2015 address validation test intended to collect cost data in 
the field, but it didn't.
    Finally, during the 2015 census test, we found that the 
Bureau could not differentiate between the cost performing 
enumeration versus administrative activities. Therefore, it 
could not determine whether the new enumeration methods were 
more effective and more efficient than was achieved by just 
reducing administrative burdens.
    We also reported weaknesses with how the Bureau accounts 
for cost. In auditing its process for implementing the fiscal 
year 2014 budget cuts, we found that the Bureau recorded 
employee costs based on predetermined budget allocations 
instead of the actual hours worked. In addition, we found 
multiple instances where contractor costs were not charged to 
the correct activities. All of these accounting and estimation 
weaknesses prevent the Bureau from making informed decisions.
    Second, we are concerned about cost overruns, unaccounted 
for costs, and decreased cost avoidance. For example, the 
Bureau initially projected spending $656 million for the CEDCaP 
program and now it's estimated at $965 million. And I think 
based on what the Secretary just said, it will be even higher.
    One audit of the--our audit of the Bureau's address 
canvassing test also found substantial overruns. The Bureau 
estimated that spending for in-office address canvassing would 
be $44 million between fiscal year 2016 through 2019, but our 
review found it would cost nearly three times that amount at 
$125 million.
    Finally, our evaluation of the 2016 census test identified 
unaccounted-for cost with the redesigned NRFU operations. We 
found that the operational control system allowed enumerators 
to make more NRFU contact attempts than the cost estimate 
accounted for, so the expectation was they would go up to six 
times, and we found them going many, many more times. We are 
also concerned about the increased unresolved rates, as 
observed in the test, the potential need to expend additional 
resources that are not currently accounted for in the Bureau's 
cost estimate.
    In conclusion, we applaud the Census Bureau for undertaking 
several major initiatives to modernize its decennial 
operations. We recognize that not all the innovations will 
perform as expected, and that some of the 2020 cost savings may 
not materialize. However, for stakeholders to have confidence 
in the cost estimate, the Bureau must strengthen its cost 
accounting processes by documenting inputs and capturing and 
tracking all project costs correctly.
    I'm encouraged by the recent efforts to improve the 
lifecycle cost estimate. The Bureau has started linking 
documentation to the variables in its estimate, and as we've 
just heard, the Secretary's task force worked closely with the 
Bureau to improve that estimate. We are looking forward to 
reviewing that final product.
    So thank you very much for inviting me, and I'm pleased to 
answer any questions.
    [Prepared statement of Ms. Rice follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Thank you, Ms. Rice.
    Ms. Gupta?

                   STATEMENT OF VANITA GUPTA

    Ms. Gupta. Chairman Gowdy, Ranking Member Cummings, and 
members of the committee, thank you for inviting me to be here 
today. The Leadership Conference on Civil and Human Rights is a 
coalition of more than 200 national organizations that--and has 
been deeply engaged in the last several cycles of the decennial 
census.
    The Leadership Conference shares this committee's concerns 
and interest in a modern, secure, and cost-effective 2020 
census. Technology can facilitate easy and less costly 
participation in the census. However, to uphold its 
constitutional duty and ensure an accurate and fully inclusive 
count, Congress must allocate sufficient resources to count 
historically undercounted communities, as well as easier-to-
count communities. It must also provide funding for 
comprehensive risk management and preparations for real-time 
backup methods and operations, and we're pleased to submit for 
the record two reports from the Leadership Conference in 
addressing both opportunities and the risks posed by the use of 
technology and of administrative records in the 2020 census.
    Per the Constitution, the primary and overarching goal of 
the census is a fair and accurate enumeration of all people 
living in the United States on census day. And the goal of a 
census that is equally successful in all communities is really 
nonnegotiable. These aren't, as the chairman said, Republican 
goals or Democratic goals. They are shared American goals, and 
achieving them is going to be very key to our representative 
system of government.
    But insufficient, uncertain, and frequently late annual 
funding has delayed and derailed important census testing and 
preparations, as you've heard already. Most at risk are 
operations that are specifically designed to enumerate 
historically hard-to-count communities. The Census Bureau needs 
a steady ramp-up and funding to support a critical dress 
rehearsal, deployment of the IT architecture and field 
structure, and development of a massive communications campaign 
that is going to encourage people to participate and therefore 
at the backend help keep census costs in check.
    We support the proposal in Congresswoman Maloney's new 
bill. I won't go through the details of that because you have 
that already before you. But the census has political 
consequences, of course. In fact, the Constitution says as much 
by basing congressional apportionment and equal representation 
on the population count. But the conduct of the census must be 
strictly nonpartisan and must strive to achieve an equally 
accurate account in all communities.
    Unfortunately, even with careful planning, we may be 
looking at an environment that could yield significant 
undercounts in poor communities, rural areas, communities that 
are recovering from natural disasters, communities of color, as 
well as undercounts of young children, immigrants, and others 
who have a palpable mistrust of government, who have deep 
concerns about cybersecurity and the security of their 
information, as well as in rural communities where the digital 
divide is particularly pronounced.
    There are hard-to-count communities in every State and 
hard-to-count populations in communities of all sizes from 
large urban areas to smaller cities to rural and remote 
communities, including American Indian tribal lands and 
reservations. And just two points to note for both members 
here, nearly 10 percent of census tracts in South Carolina are 
hard to count per Census Bureau research, and 27 percent of 
Baltimore's population live in hard-to-count census tracts.
    Regrettably, we fear that the strict budget constraints 
Congress has imposed on the 2020 census add to these formidable 
barriers. The Census Bureau is going to attempt to minimize 
undercounting but is going to be hampered by a smaller 
footprint in the field. And as you know, when your constituents 
are not counted in the census, they remain invisible for the 
next 10 years. There aren't any do-overs, and there's no 
question that the Census Bureau must get it right for the first 
time because all of us, Members of Congress, county officials, 
and mayors, school principals, veterans, advocates, businesses 
large and small, and indeed all of us in the United States have 
to live with the results of it for the next 10 years.
    So the Leadership Conference and our member organizations 
look forward to working with all of you to ensure a cost-
effective, secure, and above all an accurate and inclusive 
census in every single one of our nation's communities. Thank 
you.
    [Prepared statement of Ms. Gupta follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. I want to thank all four of you for your 
opening statements. I also want to thank you for doing it in 
less than five minutes, which is something that Members of 
Congress cannot do, so I hope you consider running some time.
    Mr. Cummings, my friend from Maryland.
    Mr. Cummings. Certain population groups have historically 
been undercounted in the decennial census, specifically 
minorities such as African Americans, Hispanics, and American 
Indians on reservations are counted at rates much lower than 
others. Ms. Gupta, what are some of the reasons these groups 
are undercounted?
    Ms. Gupta. Well, I think that one significant reason--and 
it's particularly of concern right now--is the mistrust of the 
Federal Government and whether communities will be--whether 
their information when filling out the census will be safe and 
not used for enforcement purposes or-- and the like is 
particularly I would say right now among--in immigrant 
communities, but there's also a real concern around the digital 
divide and what that might do with--and I would say it's even 
more acute in rural communities, as well as, you know, real 
concerns around cybersecurity and whether their information is 
going to be breached and the like.
    But a lot of hard-to-count--a lot of these harder-to-count 
communities, with communities of color, there is a lot of 
mobility in these communities. They need to be--have trusted 
partners in the field from the census, whether it's through 
organizations like the ones that make up the Leadership 
Conference or through trusted partnerships with the Census 
Bureau to have trusted messengers that are explaining the 
purpose of the census, why it's important to be counted, and 
that's why the partnership program and the communications 
aspects of the census need to be adequately funded because 
without that, there's no chance of getting an accurate count, 
and that will ultimately fail the entire census and the 
country.
    Mr. Cummings. One thing that Secretary Ross said to the 
chairman and I the other day is that the cost of labor he 
thinks has to go up because you have got to get a certain kind 
of person, the type that you just talked about, and to get--and 
I was just trying--as you were talking, I was trying to figure 
out how do you penetrate that? I mean, how do you get past that 
problem because if people are not trusting of government, if 
they are worried about immigration issues maybe not for 
themselves but for family members, and then there are some 
people that just--they don't even know what the census is. All 
they know is that the government is knocking on their door. And 
any time the government is knocking on their door, they assume 
that it is something bad. I know because I lived in a 
neighborhood like that. So how do you get past that?
    Ms. Gupta. Well, I really think it's critical that the 
census have--the Bureau have the infrastructure around the 
communications machinery and the partnership program. And we 
were encouraged--I was encouraged today when I heard the 
Secretary talk about a projected communications budget of $500 
million, but I think it's really important to ensure that there 
is enough money to actually promote census participation in our 
many diverse communities and to address some of the 
unprecedented challenges that the 2020 census is going to be 
facing around, as I said, the mistrust of government, 
cybersecurity fears, fear of Federal Government agencies.
    And I think it's deeply important that the Commerce 
Department and the Census Bureau consult closely with 
stakeholders who know these communities well, who are in these 
communities, who can be trusted messengers and know best how to 
convey the information and the value of what it means to be 
counted. And that's the only way I think that we're going to be 
able to ensure that there's a fair and accurate count. And of 
course there's already deep concerns about the canceled testing 
and the like that could have other implications for the 
accuracy of the census in the next--in 2020.
    Mr. Cummings. Talking about the canceled testing, I 
understand that one test the Bureau canceled in 2017 due to 
insufficient funds was to be conducted on tribal land, 
including on the Standing Rock Reservation. Is that what you 
are referring to? Considering that Native Americans were the 
most undercounted group of the 2010 census, this is a very 
significant.
    Ms. Gupta, what are the implications of canceling this and 
other critical tests, particularly for rural areas and American 
Indian reservations?
    Ms. Gupta. Well, you know, it's the--there's a statistic 
that we have that 87 percent of the hardest-to-count counties 
in the 2010 census were rural counties, and given that this is 
the first high-tech census, I think there's a lot of questions 
that you have heard a lot of concerns both about cybersecurity, 
about whether there's going--the technology is going to work. 
While obviously we all want a modernized census, you have to be 
able to test it, and testing it in rural communities as well as 
in hard-to-count communities is going to be really important to 
be able to actually get it done in 2020. And the fact that they 
canceled because of insufficient funding three out of four of 
the census test runs, end-to-end test runs is really of great 
concern, and it will hamper--this lack of preparation, you 
know, could very well hamper the accuracy and fairness of the 
census count in 2020.
    Mr. Cummings. With the chair's indulgence, I just have one 
question, one last question. The alleged cost savings of such 
cancellations are, as they say, penny wise but pound foolish. 
Mr. Goldenkoff?
    Mr. Goldenkoff. Yes.
    Mr. Cummings. GAO has reported that higher response rates 
save money. Can you try to explain that to us?
    Mr. Goldenkoff. Sure. The most cost-effective way to count 
people is when they fill out the questionnaire that's either 
mailed to them or when they self-respond via the internet. 
Every time--and if they don't self-respond through either of 
those methods, then the Census Bureau has to send out 
enumerators to knock on their doors and--as many as six times. 
And so you can see how costs add up very quickly. It's both in 
terms of the time that the enumerators are paid for, the wages 
that they earn, as well as for the mileage that they're 
reimbursed. So the most cost-effective way of conducting the 
census is to get up to increase that initial count.
    Chairman Gowdy. The gentleman yields back.
    Mr. Powner, I was sitting here trying to figure out whether 
anything could be more inherently predictable than the 
decennial census. I really am struggling to think of something 
that you see that far in advance that is coming. So not to ask 
this in too sophisticated of a way, but how the hell did we get 
here if we know it is coming every 10 years? How do you get on 
a critical watchlist?
    Mr. Powner. Well, the thing that's a bit frustrating is the 
same thing happen in 2010, and we actually were involved in 
that in 2010. So that's when we canceled the handheld project. 
This committee held multiple hearings on the overruns there and 
the eventual cancellation. The interesting comment that 
Secretary Ross talked about, 80 percent of the monies going 
from--beyond 2018, from an IT perspective, that should not be 
the case. We should start early, plan more appropriately, get 
the right contracts in place, and deliver.
    What happens with the decennial historically and it's going 
to happen again, can we get this done late and secure it late? 
Yes. But you know what it's going to be? It's going to be at 
higher cost. You pay a premium for doing everything late. I 
would have major concerns about the 15.6 and still hitting that 
even with the 10 percent when you look at the IT management of 
this.
    The thing that's good is having the Commerce Department's 
governance and oversight I think will greatly help, but we 
still haven't changed the basic management of how we're doing 
things at the Census Bureau, so we would still have concerns 
about additional cost overruns going forward. But it is--it's 
not acceptable that we repeat the same sins of the past that we 
do every 10 years with the decennial.
    Chairman Gowdy. It is really hard to explain to the same 
people that you are trying to convince to voluntarily comply, 
which leads to my next question. What are the impediments? Mr. 
Goldenkoff, what are the impediments to what I call voluntary 
compliance, although I am sure that is not the right technical 
term?
    Mr. Goldenkoff. Sure. There are a number of barriers. One 
that was already mentioned was just declining civic engagement. 
People are increasingly disconnected from the government, you 
know, so that requires trust, building trust between the Census 
Bureau and the public. There's also a cultural divide. You 
know, when--and it was already mentioned, too, when the 
government comes knocking on your door, you know, the census is 
sometimes seen as not something that's done for you or on your 
behalf. It's sometimes seen as something that's done to you. 
It's not always seen in a positive light.
    Then there's structural barriers, people living in 
makeshift housing, nonconventional housing, people doubling up, 
people living in basements and converted attics, so they're 
just physically hard to find. There are language barriers out 
there, so just reaching those folks is difficult as well.
    And this is why all this upfront work is so important and 
why the Census Bureau is at the point that it is right now. 
It's very difficult to make up for either funding that was not 
provided or time that's already elapsed. You can get behind the 
curve very quickly.
    Chairman Gowdy. Well, accepting the fact that we can't do 
all of the preplanning for 2020 that needed to be done in 2012, 
2013, so the best we can do is the 2030 census there. With 
specific reference to the 2020 that is coming up, if I heard 
the testimony right, there is an opening in the census 
director's office? So I'm going to start with Ms. Gupta. If you 
were the census director and you got to do one thing and you 
have got to do it today, upon the chance that Mr. Ross or his 
folks may be listening, what is the single most important thing 
you would do today for the 2020 census?
    Ms. Gupta. It's hard to say a single thing. I think two--a 
couple things need to happen all at once. The IT infrastructure 
needs to be tested clearly for all of the reasons that have 
been previously stated. And I think that the partnership and 
communications campaigns need to be out there starting in the 
next couple of months. They've got to ramp up this whole 
infrastructure in order to really educate folks about why it's 
important to be counted and to overcome some of the real 
concerns around mistrusting government and cybersecurity.
    And so--and, you know, I want to add that when the 
Secretary was testifying, he said that he anticipated 800 
partnership specialists, which is well below the 2010 number of 
3,800, and so those plans are still inadequate, and I just 
think that right now there is a lot of concern that the 
hardest-to-count communities are not going to be adequately 
counted, and that will result in a failed census even with the 
$1.6 billion if allocated. And so we have to--there has to be 
an immediate investment in that infrastructure and kind of real 
planning around it, just as there is with the IT.
    Chairman Gowdy. Ms. Rice, what is the single most or two if 
you want--what needs to be done today, given the fact that we 
can't change the lack of preplanning?
    Ms. Rice. I really think the IT infrastructure has to be in 
place. We don't want to be in a position where we were in 2010 
where--and they had to revert to a paper-based operation at the 
last minute. And they didn't have the--they had some 
infrastructure there, and they had to build on it, and it was a 
problem. There were backlogs, and they--you know, the office 
sizes weren't compatible for a paper operation. I mean, there 
were--it was just a trickle down, all the problems. They got it 
done, but it wasn't pretty. So getting that IT infrastructure 
in place, it's ----
    Chairman Gowdy. Mr. Powner, you can't use the word 
infrastructure. What would you do?
    Mr. Powner. So with the IT, and that's my world, Mr. 
Chairman, I would say those 43 systems need to be delivered and 
secured. And, you know, we have this data in our testimony that 
looks all neat and every--it's very difficult to get a handle 
on where all the systems are from a delivery point of view, 
integration and security. That needs to be managed weekly. 
Someone needs to dog that weekly in terms of what we got done, 
what remains next week, and are we going to hit those dates. 
There's key dates in early 2018 that are going to be key to 
getting this stuff delivered to be included in the end-to-end 
test, so you have to dog the 43 systems from a security 
perspective, Chairman.
    Representative Hurd's comments about the ATO process, it's 
fine to bring in people, but you know what, you need to 
actually do the assessments and you need to fix the 
vulnerabilities and you need to sign off on the ATOs. That 
needs to be managed weekly to ensure that that gets done and we 
don't have a major breach.
    Chairman Gowdy. Mr. Goldenkoff, last question, the 
diminution of public trust, it didn't happen overnight. It is 
not going to be remedied overnight. What is something that 
perhaps Members of Congress haven't thought about or what is 
something you would do to try to restore some modicum of public 
trust so we can raise the voluntary compliance rate in 2020?
    Mr. Goldenkoff. Sure. It's--I don't--you know, off the top 
of my head I don't think there's anything new, and I would 
certainly be leery of trying anything that has not been used 
before at this point just because it will be one more risk for 
the Bureau to have to manage. What I think needs to be done is 
focus on the tried-and-true methods, things that are known to 
work, and I would point to the partnership specialists and the 
whole communication and outreach campaign.
    The partnership specialists are so critical for engaging 
the different people that they represent, their different 
stakeholder groups, and they're the ones who create the trust. 
They are the trusted voices. If, you know, Secretary Ross or 
any of us goes up on TV or, you know, makes--encourages people 
to respond to the census, it's not going to have the same level 
of response as people who know the community, your local 
minister, your school principal.
    It was mentioned before that the Census Bureau hopes to 
hire as many as 800 partnership specialists. That sounds like a 
large number, but if you just look at the workload, if you 
think if there are over 3,000 counties in this country, that's 
a huge workload for them. It's a three-dimensional issue. They 
have to cover both physical geography, the different channels 
of communication, plus the deep dive into all the different 
communities. And so I think a focus then on the partnership 
campaign and making sure that that's adequately funded and gets 
the resources they need will be critical for increasing the 
count in hard-to-count communities.
    Chairman Gowdy. Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    Ms. Rice, can you provide your initial thoughts and 
observations of the 2018 end-to-end testing?
    Ms. Rice. Sure. So we did visit all three locations and 
found--just to remind everybody about 2010, they actually did 
use a device in 2010. The field data collection automation 
worked for address canvassing. They abandoned it for NRFU or 
nonresponse follow-up. So using a device in the field for 
address canvassing they did last decennial, so it actually 
went, all things considered, okay. I didn't see any major ----
    Mr. Palmer. Was there any aspect of the testing stand out 
to you as raising any potential issue for future address 
canvassing?
    Ms. Rice. We did think that in the rural areas that there's 
something called an optimizer that sends the lister to a 
location, that it wasn't as efficient as maybe it could have 
been. We're trying to look into that as--to find out why. But 
there were people--some folks traveling a couple of hours to 
get to locations, which seems fairly inefficient.
    Mr. Palmer. Well, your office raised some issues. You 
actually published a report questioning the Bureau's in-office 
address canvassing cost estimates, as well as warning that an 
increase in the infield canvassing could increase cost. Will 
the percentage of addresses sent for infield work during the 
testing be a factor in your review as you consider that issue?
    Ms. Rice. Yes. So the in-office address canvassing 
basically determines whether something--a block looks like it 
grew or changed. So if indeed the test--the results don't show 
that that process worked very well, there will be more infield 
address canvassing, and that will raise costs. The Bureau is in 
the process of putting out a study to show the effectiveness of 
in-office address canvassing. We, too, plan on trying to look 
at that to see how well it worked because that is a concern. If 
in-office address canvassing isn't predicting the infield 
workload, that can be a problem, and it can ----
    Mr. Palmer. Is that part of the increase in the cost 
estimate? Is that already taken into account or is that going 
to be in addition to what they are saying we are needing now?
    Ms. Rice. Yes, my understanding is because the in-office 
address canvassing consisted of two pieces, the interactive 
review, which was satellite imagery, and then the second part 
was an active block resolution where they take the results from 
the imagery and try to find the households. They canceled the 
active block review, and those housing units will now go into 
infield address canvassing. So that will create an increase.
    Mr. Palmer. Mr. Goldenkoff, in panel one with Secretary 
Ross it got a little intense in some of the questions that were 
asked, and part of the issue is that the Census Bureau has I 
think pretty evident a poor track record in addressing flaws 
and problems that have been identified by the OIG office and 
GAO. Would you like to enlighten us a little bit on this 
relationship between your office and the Census Bureau and 
their willingness to follow up on the things that you have 
suggested ----
    Mr. Goldenkoff. Sure.
    Mr. Palmer.--which your office has suggested?
    Mr. Goldenkoff. In that respect, you know, we're encouraged 
by willingness to work with us and other stakeholder groups. 
Just some examples of the way that we engaged the Census 
Bureau, on a monthly basis we meet with the acting director and 
deputy director and before that with the director of the Census 
Bureau. We share information about ongoing problems. We do have 
regular discussions about the progress that they're making on 
implementing our recommendations. They're much more transparent 
than they used to be. I've been involved with census issues 
since 1997, and there really has been a sea change in terms of 
the culture at the Census Bureau and their willingness to work 
with outside groups, us. And going into the 2000 census, it was 
very standoffish, tried to keep GAO at bay and other 
organizations. Now, they embrace our recommendations, and that 
goes all the way up to the Department of Commerce level as 
well. We've had some meetings with Commerce Secretary, and they 
been very effective and very willing to work with us.
    Mr. Palmer. And you said currently I think--I'm not sure 
exactly the way you used it, but one of the questions that I 
raised to Secretary Ross is the fact that the GAO had a high-
risk list. You issued 30 recommendations over three years but 
only six of them were fully implemented by January.
    Mr. Goldenkoff. Right.
    Mr. Palmer. And obviously under Secretary Ross he inherited 
that problem. I think what we on the committee would like to 
determine is how much willingness is there to work with the GAO 
or Mr. Powner with the OIG's office to resolve these issues and 
do it in a timely manner? Is that what you are finding now, 
that there is this willingness, a ----
    Mr. Goldenkoff. Oh, absolutely. They really embrace our 
recommendations now, and that was not the case a decade or more 
ago.
    Mr. Palmer. Well, I think both your offices had expressed 
some concerns that the Bureau is failing to adequately test 
systems and products, and that was one of the issues raised by 
my colleague from Georgia. I appreciated Secretary Ross' answer 
that you can't test a system until the system is in place, but 
one of the things, again, that we emphasized to the Secretary 
is that we want him to test the systems and we want the test 
results to be used in the decision-making process. Are you 
finding them to be working in an agreeable manner on that?
    Mr. Powner. So, first of all, they had delivered the 
systems, so once we get all the systems delivered, there is a 
plan to test it in an integrated fashion. I will give the 
Bureau credit that they did higher an integration contractor to 
help with that. We think that's a good thing. The issue ends up 
being can they get all that delivered, integrated, and secured 
in the time that remains? It's highly likely not everything 
will be in 2018 end-to-end test, and--so what does that mean? 
That means they're going to have to test it post end-to-end 
test. And again, it's not that it can't be done, but there is--
you know, you're compressing testing schedules. There's higher 
risk. There's more cost and that type of thing. But that 
something that we will monitor closely to ensure all those 
integration tests are done appropriately.
    Mr. Palmer. When was that contract awarded to that 
contractor?
    Mr. Powner. Pardon me?
    Mr. Palmer. When did they award this contract to the 
contractor?
    Mr. Powner. That would have been in the summer of '16.
    Mr. Palmer. Is there a particular reason why they can't get 
the work done so that it could be tested pre-census?
    Mr. Powner. Well, they're trying to get it done so--pre-
census. I mean, they're working hard to get that done. That 
integration contractor is relying on other contracts--
contractors to deliver their systems. And again, you know, we 
missed milestones. We had some late starts, and they kind of 
inherited a bad problem, so they're kind of coming in to mop 
up.
    Mr. Palmer. Well, I appreciate your willingness to come 
before the committee today and answer our questions.
    With that, Mr. Chairman, I yield back.
    Chairman Gowdy. The gentleman from Alabama yields back.
    On behalf of all the members of the committee, I want to 
thank you for your time today, for your expertise, and your 
commitment to an accurate census in 2020.
    The hearing record will remain open for two weeks for any 
member to submit a written opening statement or questions for 
the record.
    If there is no further business, thank you again for your 
testimony today, and we are adjourned.
    [Whereupon, at 1:02 p.m., the committee was adjourned.]


                              APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
